<html>
<title> - OVERSIGHT OF EXECUTIVE ORDER 13636 AND DEVELOPMENT OF THE CYBERSECURITY FRAMEWORK</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
               OVERSIGHT OF EXECUTIVE ORDER 13636 AND 
                DEVELOPMENT OF THE CYBERSECURITY 
                FRAMEWORK
=======================================================================

                                HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON CYBERSECURITY,
                       INFRASTRUCTURE PROTECTION,
                       AND SECURITY TECHNOLOGIES

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 18, 2013

                               __________

                           Serial No. 113-27

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]





      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                    U.S. GOVERNMENT PRINTING OFFICE
86-034 PDF                    WASHINGTON : 2014
_____________________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov Phone: toll free (856) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, Washngton, DC 20402-0001










                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Richard Hudson, North Carolina       Eric Swalwell, California
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                 Patrick Meehan, Pennsylvania, Chairman
Mike Rogers, Alabama                 Yvette D. Clarke, New York
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Jason Chaffetz, Utah                 Filemon Vela, Texas
Steve Daines, Montana                Steven A. Horsford, Nevada
Scott Perry, Pennsylvania            Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Alex Manning, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Patrick Meehan, a Representative in Congress From 
  the State of Pennsylvania, and Chairman, Subcommittee on 
  Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     1
  Slides.........................................................     3
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................    11

                               Witnesses

Mr. Robert Kolasky, Director, Implementation Task Force, National 
  Protection and Programs Directorate, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    13
  Joint Prepared Statement.......................................    15
Mr. Charles H. Romine, PhD, Director, Information Technology 
  Laboratory, National Institute of Standards and Technology, 
  U.S. Department of Commerce:
  Oral Statement.................................................    19
  Joint Prepared Statement.......................................    21
Mr. Eric A. Fischer, PhD, Senior Specialist, Science and 
  Technology, Congressional Research Service, Library of 
  Congress:
  Oral Statement.................................................    23
  Joint Prepared Statement.......................................    25


OVERSIGHT OF EXECUTIVE ORDER 13636 AND DEVELOPMENT OF THE CYBERSECURITY 
                               FRAMEWORK

                              ----------                              


                        Thursday, July 18, 2013

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Cybersecurity, Infrastructure Protection, 
                                 and Security Technologies,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 311, Cannon House Office Building, Hon. Patrick Meehan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Meehan, Marino, Clarke, Keating, 
and Vela.
    Mr. Meehan. The Committee on Homeland Security, 
Subcommittee on Cybersecurity, Infrastructure Protection, and 
Security Technologies will come to order.
    Subcommittee is meeting today to examine the implementation 
of Executive Order 13636 and the administration's cybersecurity 
framework, and I recognize myself now for an opening statement.
    I would like to welcome everybody to today's hearing, which 
continues our subcommittee's efforts to provide oversight over 
the President's Cybersecurity Executive Order 13636. The focus 
of the Executive Order is to provide protection for our 
Nation's critical infrastructure sectors from cyber threats. 
These sectors include our energy and nuclear facilities, our 
Nation's transportation systems, our defense industrial base, 
and financial services, among others.
    Today we will focus on the cybersecurity framework, under 
which the National Institute for Standards and Technology or 
NIST, as it is often referred to, has the responsibility of 
working with stakeholders to develop.
    The framework is expected to be completed and released by 
October 30. On July 1, NIST released an outline of that 
framework, which will be the basis of the committee's 
questioning today.
    So far NIST has held three workshops to gather input from 
industry, academia, other stakeholders, and a fourth is 
expected in September, I believe, in Dallas, Texes.
    I believe that the outline of NIST's framework provides an 
important step to increasing our Nation's awareness and ability 
to protect our networks from crippling cyber attacks.
    In fact, I believe that the three are many mature actors in 
both Government and the private sector working in great 
coordination currently--including those at the Department of 
Homeland Security--to shield our systems from cyber threats.
    It is, however, those outliers--the ones without the 
awareness, those with insufficient resources--who can present 
immense vulnerabilities to entire networks.
    It is this concern that our subcommittee seems to have 
allayed. We must find answers to the question of: How do we 
incentivize participation without creating counterproductive, 
onerous standards and regulations?
    Adopting the NIST framework would result in a positive 
exercise for owners and operators of critical infrastructure. 
However, I have concerns that a self-assessment may not be 
sufficient to incentivize action to bolster cyber defenses in 
all cases.
    Our committee has held over 200 meetings with stakeholders 
and one of the common themes emanating from the discussions is 
that they are only as strong as their weakest links. I believe 
an analysis of the incentives included in this framework is in 
order.
    I look forward to hearing from the panel today on ways we 
can assist both the public and private sector to increase their 
hygiene with limited resources.
    Providing incentives for organizations to share information 
and best practices is further complicated by the absence of 
liability protections. In the Executive Order, our goal should 
be to encourage that information sharing, and I have questions 
about the ability of regulators to reform use--require use of 
the framework, turning this into burdensome check-the-box rules 
and regulations.
    Ultimately, I believe it is the consensus of the committee 
that Congress must pass legislation in order to address many of 
these outstanding issues.
    Existing structures within DHS must be authorized by 
Congress to continue functioning. Liability protections, 
information-sharing provisions, and industry-led incentives can 
only be fully enacted by statute, not exclusively by 
Presidential Directive.
    I look forward to working with the committee, with our 
panel, and DHS to craft legislation that will address these 
issues.
    I thank the panel for their participation today, and I look 
forward to hearing from your testimony.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meehan. The Chairman now recognizes the Ranking 
Minority Member of the subcommittee, the gentlelady from New 
York, Ms. Clarke, for any statement that she may have.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    Welcome to our panelists this morning.
    Our country's reliance on cyber systems cover the 
waterfront; everything from power plants to pipelines and 
hospitals to highways, have increased cyber connections 
dramatically and our infrastructure is more physically and 
digitally interconnected than ever.
    Yet for all of the advantages interconnectivity offers our 
Nation's critical infrastructure, it is also increasingly 
vulnerable to attack from an array of cyber threats.
    It is vital that we as a country take action to strengthen 
our National policy on critical infrastructure security and 
resilience and includes measures to strengthen cybersecurity.
    Because the majority of our critical infrastructure is 
owned and operated by private companies, the public and private 
sectors have a shared responsibility to reduce the threats to 
critical infrastructure through a stronger partnership.
    The current Federal legislative framework for cybersecurity 
is complex with more than 50 statutes currently addressing 
various aspects of it.
    However, we can all agree that the current framework is not 
sufficient to address the growing concerns about the security 
of cyberspace in the United States and no major cybersecurity 
legislation has been enacted since 2002, although the Executive 
branch has taken several notable actions.
    The Federal role in protection of privately-held critical 
infrastructure has been one of the most contentious issues in 
the debate about cybersecurity legislation.
    There appears to be a broad agreement that additional 
actions are needed to address the security risks, NCI, but 
there is considerable disagreement about how much, if any, 
additional Federal regulation is required.
    So in February of this year, the President acted through an 
extraordinary order of directives an Executive Order on 
cybersecurity and a Presidential Policy Directive on critical 
infrastructure security and resilience that will likely become 
National and global references for cybersecurity policymaking.
    Under the EO, the Secretary of Commerce is tasked to direct 
the director of NIST to develop a framework of reducing cyber 
risks to critical infrastructure.
    The framework will consist of standards, methodologies, 
procedures, and processes that align policy, business, and 
technological approaches to cyber--to address cyber risks.
    The Department of Homeland Security in coordination with 
sector-specific agencies will then establish a voluntary 
program to support the adoption of the cybersecurity framework 
by owners and operators of critical infrastructure and any 
other interested entities.
    It is important that the United States set a positive 
example regarding the essential role that global standards play 
for both industry and Government. This framework presents an 
important opportunity to develop a product that many other 
countries can replicate and use in their policy environments.
    The United States could encourage global acceptance of this 
framework by seeking comments and support from our allies 
during its development. This adoption would be beneficial by 
creating consistent and cohesive approaches across these 
geographies as well as a commitment to the global 
standardization process.
    A long-standing concern of mine is how we go about 
addressing cyber workforce considerations and how they will be 
included in the development of the framework we will be talking 
about today.
    Our National cybersecurity workforce must be trained and be 
able to maintain the skills necessary to understand the 
changing operating environment. They must also be able to 
understand the threats, vulnerabilities to the environment, and 
most importantly, they must be skilled at practices to combat 
those threats and vulnerabilities.
    I am hoping that you, Mr. Chairman, and I can work together 
on this important need.
    We also have a need of improvement in the fundamental 
knowledge of cybersecurity. New solutions and approaches have 
been recognized for well over a decade and those discoveries 
were a factor in the passage of the Cyber Security Research and 
Development Act in 2002.
    However, the law focuses on cybersecurity R&D by NSF and 
NIST. The Homeland Security Act of 2002 in contrast does not 
specifically mention cybersecurity R&D, but DHS and several 
other Departmental agencies make significant investments in it.
    About 60 percent of reported funding by agencies in 
cybersecurity and information assurance is defense-related and 
we need to direct some of this R&D in the civilian arena.
    I understand that you, Mr. Chairman, have some language 
along this line, and I hope we can, together, work on this 
issue.
    What we all want for a cybersecurity framework is something 
that is flexible, repeatable, performance-based, includes a 
strong privacy and civil liberties protections, and something 
that is cost-effective.
    After all, the President is attempting to help the 
privately-held owners and operators of the Nation's critical 
infrastructure to identify, assess, and manage cybersecurity-
related risks while protecting business confidentiality and 
individual privacy and civil liberties.
    In short, we need to regain sovereignty over our National 
and local assets that keep our small businesses running, our 
city and State governments providing services to citizens, our 
factories humming, and our essential services protected.
    I look forward to testimony today about the progress that 
is being made because of the President's leadership on 
cybersecurity, and I hope that Congress can learn some lessons 
from the process he has set in motion.
    I just want to add that I recently received this copy of 
the incentives study, Mr. Kolasky, and I understand that this 
is in response to the Executive Order.
    It was issued May 21, and it would be great if we engaged 
in information sharing as well if we are going to demand it 
from those who are tasked to give guidance to.
    With that, Mr. Chairman, I yield back.
    [The statement of Ranking Member Clarke follows:]
              Statement of Ranking Member Yvette D. Clarke
                             July 18, 2013
    Our country's reliance on cyber systems covers the waterfront, 
everything from power plants to pipelines, and hospitals to highways 
have increased cyber connections dramatically, and our infrastructure 
is more physically and digitally interconnected than ever. Yet for all 
the advantages interconnectivity offers, our Nation's critical 
infrastructure is also increasingly vulnerable to attack from an array 
of cyber threats.
    It is vital that we, as a country, take action to strengthen our 
National policy on critical infrastructure security and resilience, and 
includes measures to strengthen cybersecurity. Because the majority of 
our critical infrastructure is owned and operated by private companies, 
the public and private sectors have a shared responsibility to reduce 
the risks to critical infrastructure through a stronger partnership.
    The current Federal legislative framework for cybersecurity is 
complex, with more than 50 statutes currently addressing various 
aspects of it. However, we can all agree that the current framework is 
not sufficient to address the growing concerns about the security of 
cyber space in the United States, and no major cybersecurity 
legislation has been enacted since 2002, although the Executive branch 
has taken several notable actions.
    The Federal role in protection of privately-held Critical 
Infrastructure has been one of the most contentious issues in the 
debate about cybersecurity legislation. There appears to be broad 
agreement that additional actions are needed to address the 
cybersecurity risks to CI but there is considerable disagreement about 
how much, if any, additional Federal regulation is required.
    So, in February of this year, the President acted through an 
extraordinary pair of directives, an Executive Order on Cybersecurity 
and a Presidential Policy Directive on Critical Infrastructure Security 
and Resilience, that will likely become National and global references 
for cybersecurity policymaking. Under the EO, the Secretary of Commerce 
is tasked to direct the Director of NIST to develop a framework for 
reducing cyber risks to critical infrastructure. The Framework will 
consist of standards, methodologies, procedures, and processes that 
align policy, business, and technological approaches to address cyber 
risks.
    The Department of Homeland Security, in coordination with sector-
specific agencies, will then establish a voluntary program to support 
the adoption of the Cybersecurity Framework by owners and operators of 
critical infrastructure and any other interested entities.
    It is important that the United States set a positive example 
regarding the essential role that global standards play for both 
industry and Government. This framework presents an important 
opportunity to develop a product that many other countries can 
replicate and use in their policy environments. The United States could 
encourage global acceptance of this framework by seeking comments and 
support from our allies during its development. This adoption would be 
beneficial by creating consistent and cohesive approaches across those 
geographies as well as a commitment to the global standardization 
process.
    A long-standing concern of mine is how we go about addressing Cyber 
Workforce considerations and how they will be they included in the 
development of the Framework we will be talking about today. Our 
National cybersecurity workforce must be trained and be able to 
maintain the skills necessary to understand the changing operating 
environment. They must also be able to understand the threats and 
vulnerabilities to that environment, and most importantly, they must be 
skilled at practices to combat those threats and vulnerabilities. I am 
hoping that the Chairman and I can work together on this important 
need.
    We also have a need for improvements in the fundamental knowledge 
of cybersecurity. New solutions and approaches have been recognized for 
well over a decade and these discoveries were a factor in the passage 
of the Cybersecurity Research and Development Act in 2002. However, 
that law focuses on cybersecurity R&D by NSF and NIST. The Homeland 
Security Act of 2002, in contrast, does not specifically mention 
cybersecurity R&D, but DHS and several other Departmental agencies make 
significant investments in it. About 60% of reported funding by 
agencies in cybersecurity and information assurance is defense-related, 
and we need to direct some of this R&D in the civilian arena. I 
understand the Chairman has some language along this line, and I hope 
we can work together on this issue too.
    What we all want from a Cybersecurity Framework is something that 
is flexible, repeatable, performance-based, includes strong privacy and 
civil liberties protections, and something that is cost-effective. 
After all, the President is attempting to help the privately-held 
owners and operators of the Nation's critical infrastructure to 
identify, assess, and manage cybersecurity-related risk while 
protecting business confidentiality and individual privacy and civil 
liberties.
    In short we need to regain sovereignty over our National and local 
assets that keep our small businesses running, our city and State 
governments providing services to citizens, our factories humming, and 
our essential services protected. I look forward to the testimony today 
to hear about the progress that is being made because of the 
President's leadership on cybersecurity, and I hope that Congress can 
learn some lessons from the process he has set into motion.

    Mr. Meehan. I thank the gentlelady for her comments and 
other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             July 18, 2013
    Several years ago, this committee passed the legislation that 
became the DHS' Chemical Facility Anti-Terrorism Standards (CFATS) 
program. CFATS was one of this committee's first attempts to 
proactively explore how to make this country safer by engaging the 
private sector. We knew that no private facility wanted to become the 
target of terrorists. But we also knew that the private sector does not 
often view the Government as a partner.
    We needed to create a structure that permitted Government and the 
private sector to work together without fear of penalty or reprisal. I 
believe we created such a system. Today, we are here to discuss another 
instance in which the private sector is being asked to cooperate with 
the Government to safeguard the American people. While the potential 
danger posed by a terrorist attack on a chemical facility is easy to 
understand, the threat posed by an attack on the cyber network of a 
facility is difficult to envision.
    But let's be clear--cyber attacks that cause large-scale system 
failures among the businesses and organization that we use every day 
would not only cause inconvenience, for some people, such system 
failures could be life-threatening.
    While something in our history and culture may not allow us to 
admit it easily, we need to acknowledge that we rely on the everyday 
presence of power plants, hospitals, manufacturing plants, mass transit 
and subway systems, airports, and the system of electronic commerce.
    And in our current world, none of these systems can exist without a 
computer network that is linked to many other computer networks. Our 
National and individual interests depend upon the protection of these 
networks and the security of the information in them.
    Government and the private sector must work together to assure that 
the owners and operators of these facilities are able to safeguard 
their operations and assets from the risk of cyber attack.
    Also, we must be sure that if attacked by a cyber terrorist, these 
facilities are able to quickly determine the damage, recover from the 
injury and move forward.
    The cybersecurity Executive Order attempts to achieve these goals. 
Needless to say, I would prefer that this Congress take up legislation 
to address the many cybersecurity threats facing the critical 
infrastructure of this Nation. However, this Congress seems to have a 
difficult time engaging in the legislative process. Thus, I look 
forward to the implementation of Executive Order 13636, which directs 
Federal agencies to coordinate the development and implentation of 
risk-based standards.

    Mr. Meehan. We are very pleased to have a distinguished 
panel before us today, and we thank each of you for the work 
that you are doing on behalf of our Nation and your efforts to 
assure that we take every possible step to protect our cyber 
infrastructure.
    We are going to be joined today first by Mr. Robert Kolasky 
who serves as the director of the Department of Homeland 
Security's Integrated Task Force that was put together to 
implement the Presidential Policy Directive 21 on Critical 
Infrastructure Security and Resilience as well as the 
President's Executive Order on Critical Infrastructure Cyber 
Security.
    Mr. Kolasky has served in many roles throughout DHS since 
joining the Federal Government in 2002, and I thank you for 
your service.
    We will be joined by Dr. Charles Romine, the director of 
Information Technology Laboratory, one of six research 
laboratories within the National Institute of Standards and 
Technology.
    Dr. Romine oversees research programs designed to promote 
U.S. innovation and industrial competitiveness by developing 
and disseminating standards, measurements, and testing for 
interoperability, security, usability, and reliability of 
information systems.
    Thank you, Dr. Romine.
    We are joined by Dr. Eric Fischer. He is the senior 
specialist in science and technology at the Congressional 
Research Service. In this role, he provides expert written and 
consultation support to Congress on a broad range of issues in 
science and technology policy including cybersecurity, 
environmental issues, and research and development.
    He has authored more than 30 CRS reports--and I thank you 
for that great work. They are a big help to us as we try to 
negotiate our way through the thicket of issues to increase our 
understanding--and more than 100 analytical memoranda for 
Congressional offices on the subjects I just mentioned.
    The witnesses' full written statements will appear in the 
record, and so I ask that you use your time as best you can to 
help us to hear what is important in your testimony.
    I will now recognize Mr. Kolasky for 5 minutes to testify.
    Thank you, Mr. Kolasky.

  STATEMENT OF ROBERT KOLASKY, DIRECTOR, IMPLEMENTATION TASK 
   FORCE, NATIONAL PROTECTION AND PROGRAMS DIRECTORATE, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Kolasky. Good morning, Chairman Meehan, Ranking Member 
Clarke, and distinguished Members of the committee. I want to 
thank you for your support of the Department, particularly in 
our mission to safeguard and secure the Nation's critical 
infrastructure.
    I am pleased to be here before you to discuss the 
administration's role and DHS's role in implementing PPD 21 on 
Critical Infrastructure Security Resilience and Executive Order 
13636, Critical Infrastructure Cyber Security.
    As you know, DHS supports critical infrastructure owners 
and operators in preparing for, preventing, protecting against, 
mitigating from, responding to, and recovering from all 
hazardous events including cyber incidents, natural disasters, 
and terrorist attacks.
    To achieve this, DHS works with public and private-sector 
partners to identify and promote effective solutions for 
security and resilience that address the risk facing the 
Nation's critical infrastructure.
    As you mentioned, recognizing the need for collaborative 
solutions to confront these risks and promote a more secure and 
resiliant critical infrastructure, President Obama issued 
Executive Order and the Presidential Policy on Critical 
Infrastructure Security and Resilience in February of this 
year.
    These two directives aimed to enhance the security and 
resilience of the Nation's critical structure to maintain a 
cyber environment that encourages efficiency, innovation, and 
economic prosperity while promoting safety, security, business 
confidentiality, privacy, and civil liberties.
    Promoting security resilience is a collaborative effort. It 
involves participation from the private sector, owners and 
operators, State, local, and Tribal territorial governments as 
well.
    To accomplish this collaborative effort, DHS stood up the 
integrated task force to implement the EO and PPD and the 
integrated task force has developed a consultative process for 
the whole Federal Government to work with the private sector 
and State and local and Tribal territorial governments as well 
as nonprofits and academic communities.
    At the integrated task force, we have developed nine 
separate working groups and have conducted more than 100 
working sessions involving 1,100 attendees to date. 
Representatives from DHS have also conducted more than 100 
briefings on our effort to nearly 10,000 stakeholders since 
February 2013.
    In addition, DHS has worked with our colleagues at the 
Department of Commerce's National Institute of Standards and 
Technology to utilize this consultative process in support of 
the development of cybersecurity framework, which NIST is 
leading the effort on.
    We have accomplished much over the past 150 days, and I 
would like to talk about that and I am eager to take questions 
related to that.
    Among the things that we have delivered, as Ranking Member 
Clarke referenced, an incentives report which analyzes 
potential incentives that can be used to promote to the 
adoption of the cybersecurity framework, a description of 
critical infrastructure functional relationships, instructions 
on producing unclassified cyber threat reports from all sources 
of information and making that information available to 
critical infrastructure partners, procedures for the expansion 
of the enhanced cybersecurity service program within DHS, which 
is intended to share cyber threat information with 
appropriately cleared private-sector cybersecurity providers 
across all critical infrastructure sectors, recommendations on 
the feasibility, security benefits, and merits of incorporating 
security standards into acquisition planning and contract 
administration, a process for expediting security clearances to 
those in the private sector with the essential need to know 
about cyber threat information, and a report outlining how well 
the current public/private partnership model that is documented 
in the National Infrastructure Protection Plan is working and 
recommendations for enhancements to that model.
    In addition, we have conducted an evaluation of and are 
identifying critical infrastructure entities where a 
cybersecurity incident has the potential to cause National or 
regionally catastrophic incidents.
    While we have made significant progress to date, there is 
much work still to be done this year. DHS will be focusing its 
efforts on the following steps throughout the rest of the year.
    Updating the National infrastructure protection plan to 
reflect new policies, a change in the risk environment, and 
lessons learned working in collaboration across the public and 
private sector to manage infrastructure risks.
    Enhancing near-real-time situational awareness for critical 
infrastructure, developing a draft of the National Critical 
Infrastructure Security and Resilience Research and Development 
Plan and collaborating with our colleagues at NIST on the 
cybersecurity framework.
    It is important to note that the EO and PPD work within 
current authorities. They do not grant new regulatory authority 
or establish additional incentives for participation in a 
voluntary program.
    The administration continues to believe that a 
comprehensive suite of legislation is necessary to implement 
the full ranges of steps necessary to build a strong public/
private partnership and we hope to continue to work with 
Congress to achieve this.
    Among our legislative priorities are: Facilitating 
cybersecurity for information sharing between the Government 
and the private sector while maintaining privacy and civil 
liberties protections and reinforcing the appropriate roles of 
intelligence and non-intelligence agencies.
    Incentivizing the adoption of best practices and standards 
for critical infrastructure by complementing the process set 
forth in the Executive Order, updating Federal agency network 
security laws and codifying DHS' cybersecurity 
responsibilities, giving law enforcement the tools to fight 
crime in the digital age, and creating a new National data 
breach reporting requirement.
    I will end my statements by saying that although we are 
doing much within the EO and PPD, this is just a start and we 
hope to continue to work with the owners and operators in State 
and local and Tribal territorial governments to make progress 
this year and in the future so that we all have confidence in 
the security and the resiliency of our critical infrastructure 
and key networks.
    Thank you for the opportunity to discuss the Department's 
role in improving critical infrastructure security and 
resilience, and I look forward to the dialogue.
    [The prepared statement of Mr. Kolasky follows:]
                  Prepared Statement of Robert Kolasky
                             July 18, 2013
                              introduction
    Good morning Chairman Meehan, Ranking Member Clarke, and 
distinguished Members of the committee. Let me begin by thanking you 
for your support of the Department of Homeland Security (DHS), 
particularly in its mission to safeguard and secure the Nation's 
critical infrastructure. I am pleased to appear before you to discuss 
the Department's role in implementing Executive Order (EO) 13636, 
Improving Critical Infrastructure Cybersecurity, and Presidential 
Policy Directive (PPD) 21, Critical Infrastructure Security and 
Resilience.
    DHS supports critical infrastructure owners and operators in 
preparing for, preventing, protecting against, mitigating from, 
responding to, and recovering from all-hazards events, including cyber 
incidents, terrorist attacks, and natural disasters. These activities 
promote the safety and security of the American public and ensure the 
provision of essential services and functions, such as energy and 
communications. To achieve this end, DHS works with public and private-
sector partners to identify and promote effective solutions for 
security and resilience that address the risks facing the Nation's 
critical infrastructure.
    While this increased connectivity has led to significant 
transformations and advances across our country--and around the world--
it also has increased the importance and complexity of our shared risk. 
Our daily life, economic vitality, and National security depend on 
cyberspace. A vast array of interdependent IT networks, systems, 
services, and resources are critical to communication, travel, powering 
our homes, running our economy, and obtaining Government services. No 
country, industry, community, or individual is immune to cyber risks.
    Critical infrastructure is the backbone of our country's National 
and economic security. It includes power plants, chemical facilities, 
communications networks, bridges, highways, and stadiums, as well as 
the Federal buildings where millions of Americans work and visit each 
day. DHS coordinates the National protection, prevention, mitigation, 
and recovery from cyber incidents and works regularly with business 
owners and operators to take steps to strengthen their facilities and 
communities. The Department also conducts on-site risk assessments of 
critical infrastructure and shares risk and threat information with 
State, local, and private-sector partners.
    Protecting critical infrastructure against growing and evolving 
cyber threats requires a layered approach. DHS actively collaborates 
with public and private-sector partners every day to improve the 
security and resilience of critical infrastructure while responding to 
and mitigating the impacts of attempted disruptions to the Nation's 
critical cyber and communications networks and to reduce adverse 
impacts on critical network systems.
    Beyond evolving cybersecurity risks, the Nation's critical 
infrastructure is potentially affected by more frequent and severe 
weather events, by sustained under-investment in the integrity of aging 
and degrading infrastructure, and by an evolving terrorist threat.
    Recognizing the need for collaborative solutions to confront this 
changing risk paradigm and promote a more secure and resilient critical 
infrastructure, President Obama issued EO 13636 and PPD-21. These two 
directives aim to ``enhance the security and resilience of the Nation's 
critical infrastructure and to maintain a cyber environment that 
encourages efficiency, innovation, and economic prosperity while 
promoting safety, security, business confidentiality, privacy, and 
civil liberties.''
    Taken together, these two policy documents are intended to achieve 
the following:
  <bullet> Encourage the adoption of effective measures across all 
        critical infrastructure sectors to improve security and 
        resiliency and reduce risk from cyber attacks to essential 
        functions and services by publishing a Cybersecurity Framework 
        (the Framework) that will provide owners and operators with a 
        prioritized, flexible, repeatable, performance-based, and cost-
        effective set of validated security controls based upon 
        industry best practices.
  <bullet> Enhance timely, relevant, and accurate information sharing 
        on significant risks by implementing a program to develop and 
        rapidly share unclassified information with critical 
        infrastructure owners and operators, enabling the adoption of 
        effective mitigations to prevent or to reduce the consequences 
        of significant incidents.
  <bullet> Align responsibilities of public and private partners to 
        efficiently allocate risk reduction responsibilities by 
        conducting an analysis of the existing critical infrastructure 
        public-private partnership model and recommending options for 
        improving the effectiveness of the partnership in managing both 
        the physical and cyber risks.
  <bullet> Promote innovation in novel risk-reduction solutions by 
        developing a National Critical Infrastructure Security and 
        Resilience Research and Development (R&D) Plan to identify 
        priorities and guide R&D requirements and investments toward 
        those solutions that will help assure the provision of 
        essential functions and services over time.
  <bullet> Ensure that privacy, civil rights, and civil liberties are 
        protected as a foundational part of all risk management efforts 
        by conducting an assessment of the privacy, civil rights, and 
        civil liberties implications of all EO 13636 and PPD-21 
        programs and recommending revisions to proposed initiatives as 
        required.
    Working in partnership with the Federal interagency, DHS 
established an Integrated Task Force to:
  <bullet> Lead the Department's implementation of PPD-21 and EO 13636, 
        including coordination with the Department of Commerce's 
        National Institute of Standards and Technology, on the 
        Cybersecurity Framework;
  <bullet> Serve as the focal point for collaboration with industry;
  <bullet> Involve key stakeholders from all levels of government; and
  <bullet> Prioritize tasks, plan implementation, and coordinate 
        principal offices of responsibility.
    The Integrated Task Force is further charged with ensuring the 
production of various deliverables as mandated under EO 13636 and PPD-
21. These deliverables, however, are not an end in themselves; rather, 
each deliverable is intended to contribute to future efforts that will 
promote the security and resilience of the Nation's critical 
infrastructure.
                          consultative process
    Promoting security and resilience is a collaborative endeavor 
requiring effort and investment from both the Federal Government and 
private sector, as well as State, local, Tribal, and territorial 
partners. Thus, to implement EO 13636 and PPD-21, the Federal 
Government has actively sought the collaboration, input and engagement 
of our partners. The Integrated Task Force has developed a 
``consultative process'' pursuant to EO 13636, to work within the 
Federal Government to collaborate with State, local, Tribal, and 
territorial government officials as well as private-sector owners and 
operators of critical infrastructure and the non-profit and academic 
communities. The consultative process is based on the following 
principles:
  <bullet> Seek out opportunities across the whole community;
  <bullet> Be systematic, transparent, and repeatable;
  <bullet> Focus on appropriate and meaningful multi-directional 
        communications and collaboration;
  <bullet> Establish protocols to ensure that progress reports, current 
        direction, and current messaging are broadly shared and 
        understood;
  <bullet> Document activities to track participation across the whole 
        community;
  <bullet> Identify and engage the full range of stakeholders across 
        the critical infrastructure and cybersecurity community;
  <bullet> Utilize established partnership organizations and regimes;
  <bullet> Promote innovative approaches to maximize opportunities for 
        input from stakeholders across the whole community;
  <bullet> Ensure that privacy and civil liberties protections are 
        incorporated into the tasks by coordinating with appropriate 
        senior Federal agency officials;
  <bullet> Foster development of an enduring engagement process that 
        can be used in other cyber and critical infrastructure security 
        and resilience efforts.
    Using those principles, the Integrated Task Force developed nine 
separate working groups and has conducted more than 100 working 
sessions involving 1,100 attendees, to date. Representatives from DHS 
have also conducted more than 100 briefings on our efforts to nearly 
10,000 stakeholders since February 2013. Outside of the established 
Integrated Task Force working groups, the cyber and critical 
infrastructure communities are being engaged through working sessions, 
conferences, meetings, and virtual collaboration methods such as the 
Homeland Security Information Network, IdeaScale, and webinars. The 
format and style of engagement varies according to the needs of the 
community engaged and the purpose for engagement. The venue and 
mechanism for engagement is also determined by the outcomes sought and 
the nature of the constituency involved. In addition, DHS has worked 
with the Department of Commerce's National Institute of Standards and 
Technology (NIST) to utilize the consultative process in support of the 
development of the Framework.
                       status of current efforts
    We have accomplished much over the past 150 days using the 
Consultative Process to engage whole community stakeholders. The 
Secretary has already submitted several EO 13636 and PPD-21 
deliverables to the White House, to include:
  <bullet> An Incentives Report, which analyzes potential Government 
        incentives that could be used to promote the adoption of the 
        Framework;
  <bullet> A description of critical infrastructure functional 
        relationships, which illustrates the Federal Government's 
        current organizational structure to deliver risk management 
        support to stakeholders and make it easier for them to 
        collaborate with the Government;
  <bullet> Instructions on producing unclassified cyber threat reports 
        from all sources of information, including intelligence, to 
        improve the ability of critical infrastructure partners to 
        prevent and respond to significant threats;
  <bullet> Procedures for expansion of the Enhanced Cybersecurity 
        Services (ECS) program to all critical infrastructure sectors. 
        The ECS program promotes cyber threat information sharing 
        between Government and the private sector, which helps critical 
        infrastructure entities protect themselves against cyber 
        threats to the systems upon which so many Americans rely. DHS 
        will share with appropriately cleared private sector 
        cybersecurity providers the same threat indicators that we rely 
        on to protect the .gov domain. Those providers will then be 
        free to contract with critical infrastructure entities and 
        provide cybersecurity services comparable to those provided to 
        the U.S. Government;
  <bullet> Recommendations on feasibility, security benefits, and 
        merits of incorporating security standards into acquisition 
        planning and contract administration, addressing what steps can 
        be taken to make existing procurement requirements related to 
        cybersecurity consistent;
  <bullet> A process for expediting security clearances to those in the 
        private sector with an essential ``need to know'' regarding 
        Classified cybersecurity risk information. This processing is 
        intended only for those who need access to Classified 
        information. While it is important to ensure that our private-
        sector partners who have a valid need for access to Classified 
        information receive appropriate security clearances, we believe 
        that most information sharing can be conducted at the 
        Unclassified level; and
  <bullet> A report outlining how well the current critical 
        infrastructure public-private partnership model as articulated 
        in the National Infrastructure Protection Plan (NIPP) is 
        working toward promoting the security and resilience of the 
        Nation's critical infrastructure, and recommendations to 
        strengthen those partnerships.
  <bullet> In addition, we have conducted an initial evaluation of and 
        are identifying critical infrastructure entities which would 
        reasonably result in catastrophic consequences from a 
        cybersecurity incident. While we are incorporating lessons from 
        this analysis in developing a repeatable system of critical 
        infrastructure assessments, the results from this preliminary 
        evaluation identified a relatively small list of U.S. critical 
        infrastructure that if impacted by a cybersecurity incident 
        could cause catastrophic consequence to our National security, 
        economic security, public health, and safety.
                             moving forward
    While we have made significant progress to date, there is much work 
still to be done this year to fulfill the vision set forth in EO 13636 
and PPD-21. To that end, DHS will be focusing its efforts on the 
following steps via the Integrated Task Force:
  <bullet> Updating the NIPP to reflect new policies, a change in the 
        risk environment, and lessons learned working in collaboration 
        across the public and private sectors to manage infrastructure 
        risk;
  <bullet> Enhancing near-real-time situational awareness for critical 
        infrastructure, with a particular focus on multi-directional 
        information sharing and understanding of interdependencies 
        between physical and cyber systems and critical infrastructure 
        sectors;
  <bullet> Developing a draft of the National Critical Infrastructure 
        Security and Resilience Research and Development Plan; and
  <bullet> Collaborating with NIST on the Cybersecurity Framework.
    DHS is developing the Performance Goals described in EO 13636 for 
the Framework collaboratively with critical infrastructure owners and 
operators using the Consultative Process. By framing the importance of 
cyber risk in a business context, the Performance Goals will encourage 
adoption of the Framework. The goals complement the Framework which 
will outline what businesses should do to manage cyber risk. In turn, 
the specific standards and controls suggested under the Framework will 
explain how businesses should manage cyber risk.
    Through the Performance Goals, critical infrastructure owners and 
operators will be able to adopt a common approach to evaluating the 
effectiveness of risk management investments based upon business 
outcomes. While DHS will not require nor evaluate the adoption of the 
Performance Goals among critical infrastructure owners and operators, 
the Goals will encourage businesses to frame cybersecurity risk in the 
context of economic sustainability, and thereby facilitate strategic 
planning and investment to identify changing risks and implement 
measurably effective solutions.
    The Framework will also serve as a basis for a DHS Voluntary 
Program, which will result in on-going collaboration with industry to 
promote market-based solutions to higher levels of cybersecurity.
                      cyber legislative priorities
    It is important to note that EO 13636 directs Federal agencies to 
work within current authorities and increase voluntary cooperation with 
the private sector to provide better protection for computer systems 
critical to our National and economic security. We continue to believe 
that a comprehensive suite of legislation is necessary to implement the 
full range of steps needed to build a strong public-private 
partnership, and we will continue to work with Congress to achieve 
this.
    Consistent with the proposal that the administration transmitted 
last Congress, legislation should:
  <bullet> Facilitate cybersecurity information sharing between the 
        Government and the private sector as well as among private-
        sector companies. We believe that such sharing can occur in 
        ways that uphold privacy and civil liberties protections, 
        expand upon existing best practices from industry leaders in 
        this area, reinforce the appropriate roles of intelligence and 
        non-intelligence agencies, and include targeted liability 
        protections;
  <bullet> Incentivize the adoption of best practices and standards for 
        critical infrastructure by complementing the process set forth 
        under the Executive Order;
  <bullet> Give law enforcement the tools to fight crime in the digital 
        age;
  <bullet> Update Federal agency network security laws, and codify DHS' 
        cybersecurity responsibilities; and
  <bullet> Create a National Data Breach Reporting requirement.
    In each of these legislative areas, we want to incorporate robust 
privacy and civil liberties safeguards. The administration stands ready 
to work with Congress to pass important cybersecurity legislation.
                               conclusion
    Critical infrastructure security and resilience to cyber incidents 
and other risks is an on-going capability development effort rather 
than an end-state to be achieved on a given date, or via a defined 
deliverable. All partners in this National effort will need to continue 
to contribute to its progress over time. The implementation of EO 13636 
and PPD-21 is a key step in achieving these desired outcomes; progress 
will require sustained effort by both public and private partners, and 
a recognition of the rapidly evolving risk environment. The desired 
end-state of the critical infrastructure partnership model is an 
environment in which public and private partners work in a networked 
manner to effectively and efficiently share information and allocate 
risk-reduction responsibilities. If achieved, this result will maximize 
the comparative advantage of each and reduce duplication or under-
investment, resulting in collaborative solutions to reduce the 
likelihood of the highest-consequence incidents.
    Thank you for the opportunity to discuss the Department's role in 
improving critical infrastructure security and resilience. I look 
forward to any questions you may have.

    Mr. Meehan. Thank you, Mr. Kolasky. That is a--you got a 
lot on your agenda. That is a big report, and I know we will be 
looking forward to talking with you about some of that.
    Dr. Romine. The Chairman now recognizes you for your 5 
minutes of testimony. Thank you.

  STATEMENT OF CHARLES H. ROMINE, PH D, DIRECTOR, INFORMATION 
  TECHNOLOGY LABORATORY, NATIONAL INSTITUTE OF STANDARDS AND 
            TECHNOLOGY, U.S. DEPARTMENT OF COMMERCE

    Mr. Romine. Thank you, Chairman Meehan, Ranking Member 
Clarke, and Members of the subcommittee. Thank you very much 
for the opportunity to testify today.
    As directed in the Executive Order, NIST is working with 
industry to develop the cybersecurity framework to improve the 
cybersecurity of critical infrastructures and working with the 
Department of Homeland Security to establish performance goals.
    Our partnership with industry and with DHS is driving much 
of our effort. Earlier this year, we signed a memorandum 
agreement with DHS to ensure that our work on the framework and 
also with cybersecurity standards best practices and metrics is 
fully integrated with information sharing, threat analysis, 
response, and operational work of DHS.
    We believe this will enable a more holistic approach to 
addressing the complex challenges that we face. The framework 
is an important element in addressing the challenges of 
improving the cybersecurity of our critical infrastructure.
    A NIST-coordinated and industry-led framework will draw on 
standards and best practices that industry already develops and 
uses. NIST is ensuring that the process is open and transparent 
to all stakeholders and will ensure a robust technical 
underpinning to the framework.
    This approach will significantly bolster the relevance of 
the resulting framework to industry making it more appealing 
for industry to adopt. This multi-stakeholder approach 
leverages the respective strengths of the public and private 
sectors and helps to develop solutions in which both sides will 
be invested.
    The approach does not dictate solutions to industry but 
rather facilitates industry coming together to develop and 
offer solutions that the private sector is best positioned to 
embrace.
    I would also like to note that this is not a new or novel 
approach for NIST. We have used very similar approaches in the 
recent past to address other pressing National priorities.
    For example, NIST's work in the area of cloud computing 
technologies enabled us to develop important definitions and 
architectures and is now enabling broad Federal Government 
deployment of secure cloud computing technologies. The lessons 
learned from this experience and others are informing how we 
are planning for and structuring our current effort.
    NIST's initial steps toward implementing the Executive 
Order included issuing a request for information or RFI this 
past February to gather relevant input from industry and other 
stakeholders and asking stakeholders to participate in the 
cybersecurity framework process.
    The responses to the RFI, a total of 244, were posted on 
NIST's website. Those responding ranged from individuals to 
large corporations and trade associations and they provided 
comments as brief as a few sentences on specific topics as well 
as so comprehensive that they ran over 100 pages. We published 
an analysis of these comments in May.
    NIST is also engaging with stakeholders through a series of 
workshops and events to ensure that we can cover the breadth of 
considerations that will be needed to make this National 
priority a success. Our first such session held in April 
initiated the process of identifying existing resources and 
gaps and prioritized the issues to be addressed as part of the 
framework.
    At the end of May, a second workshop at Carnegie Mellon 
University brought together a broad cross-section of 
participants representing critical infrastructure owners and 
operators, industry associations, standards developing 
organizations, individual companies, and Government agencies.
    This 3-day working session using the analysis of the RFI 
comments as input was designed to identify and achieve 
consensus on the standards, guidelines, and practices that will 
be used in the framework.
    Last week, NIST held its third workshop to present initial 
considerations for the framework. This workshop had a 
particular emphasis on issues that have been identified from 
the initial work including the specific needs of different 
sectors.
    During the workshop, NIST gained consensus on several 
elements that the framework will include. At 8 months, we will 
have a preliminary framework that builds on these elements. 
After a year-long effort, once we have developed an initial 
framework, there will still be much to do.
    For example, we will work with specific sectors and DHS to 
build strong voluntary programs for specific critical 
infrastructure areas. Their work will then inform the needs of 
critical infrastructure and the next versions of the framework.
    The goal at the end of this process will be for industry 
itself to take ownership and update the cyber secure framework 
ensuring that the framework will continue to evolve as needed.
    We have made significant progress, but we have a lot of 
work still ahead of us, and I look forward to working with this 
committee and others to help us address these pressing 
challenges.
    I will be pleased to answer any questions you may have for 
me. Thank you.
    [The prepared statement of Mr. Romine follows:]
                Prepared Statement of Charles H. Romine
                             July 18, 2013
                              introduction
    Chairman Meehan, Ranking Member Clarke, Members of the 
subcommittee, I am Chuck Romine, director of the Information Technology 
Laboratory of the National Institute of Standards and Technology 
(NIST), a non-regulatory bureau within the U.S. Department of Commerce. 
Thank you for this opportunity to testify today on NIST's role under 
Executive Order 13636, ``Improving Critical Infrastructure 
Cybersecurity'' and our responsibility to develop a framework for 
reducing cyber risks to critical infrastructure.
                   the role of nist in cybersecurity
    NIST's mission is to promote U.S. innovation and industrial 
competitiveness by advancing measurement science, standards, and 
technology in ways that enhance economic security and improve our 
quality of life. Our work in addressing technical challenges related to 
National priorities has ranged from projects related to the Smart Grid 
and electronic health records to atomic clocks, advanced nanomaterials, 
and computer chips.
    In the area of cybersecurity, we have worked with Federal agencies, 
industry, and academia since 1972 starting with the development of the 
Data Encryption Standard. Our role to research, develop, and deploy 
information security standards and technology to protect information 
systems against threats to the confidentiality, integrity, and 
availability of information and services, was strengthened through the 
Computer Security Act of 1987 and reaffirmed through the Federal 
Information Security Management Act of 2002.
    Consistent with this mission, NIST actively engages with industry, 
academia, and other parts of the Federal Government including the 
intelligence community, and elements of the law enforcement and 
National security communities, coordinating and prioritizing 
cybersecurity research, standards development, standards conformance 
demonstration, and cybersecurity education and outreach.
    Our broader work in the areas of information security, trusted 
networks, and software quality is applicable to a wide variety of 
users, from small and medium enterprises to large private and public 
organizations including agencies of the Federal Government and 
companies involved with critical infrastructure.
      executive order 13636, ``improving critical infrastructure 
                            cybersecurity''
    On February 13, 2013, the President signed Executive Order 13636, 
``Improving Critical Infrastructure Cybersecurity,'' which gave NIST 
the responsibility to develop a framework to reduce cyber risks to 
critical infrastructure (the Cybersecurity Framework). As directed in 
the Executive Order, NIST, working with industry, will develop the 
Cybersecurity Framework and the Department of Homeland Security (DHS) 
will establish performance goals. DHS, in coordination with sector-
specific agencies, will then support the adoption of the Cybersecurity 
Framework by owners and operators of critical infrastructure and other 
interested entities, through a voluntary program.
    Our partnership with DHS will drive much of our effort. Earlier 
this year, we signed a Memorandum of Agreement with DHS to ensure that 
our work on the Cybersecurity Framework, and also with cybersecurity 
standards, best practices, and metrics, is fully integrated with the 
information sharing, threat analysis, response, and operational work of 
DHS. We believe this will enable a more holistic approach to addressing 
the complex challenges we face.
    A Cybersecurity Framework is an important element in addressing the 
challenges of improving the cybersecurity of our critical 
infrastructure. A NIST-coordinated and industry-led Framework will draw 
on standards and best practices that industry already develops and 
uses. NIST is ensuring that the process is open and transparent to all 
stakeholders, and will ensure a robust technical underpinning to the 
Framework. This approach will significantly bolster the relevance of 
the resulting Framework to industry, making it more appealing for 
industry to adopt.
    This multi-stakeholder approach leverages the respective strengths 
of the public and private sectors, and helps develop solutions in which 
both sides will be invested. The approach does not dictate solutions to 
industry, but rather facilitates industry coming together to offer and 
develop solutions that the private sector is best positioned to 
embrace.
    I would also like to note that this is not a new or novel approach 
for NIST. We have utilized very similar approaches in the recent past 
to address other pressing National priorities. For example, NIST's work 
in the area of cloud computing technologies enabled us to develop 
important definitions and architectures, and is now enabling broad 
Federal Government deployment of secure cloud computing technologies. 
The lessons learned from this experience and others are informing how 
we are planning for and structuring our current effort.
                 developing the cybersecurity framework
    The Cybersecurity Framework will consist of standards, 
methodologies, procedures, and processes that align policy, business, 
and technological approaches to address cyber risks for critical 
infrastructure. Once the final Framework is established, the Department 
of Homeland Security (DHS), in coordination with sector-specific 
agencies, will then support the adoption of the Cybersecurity Framework 
by owners and operators of critical infrastructure and other interested 
entities through a voluntary program. Regulatory agencies will also 
review the Cybersecurity Framework to determine if current 
cybersecurity requirements are sufficient, and propose new actions to 
ensure consistency.
    This approach reflects both the need for enhancing the security of 
our critical infrastructure and the reality that the bulk of critical 
infrastructure is owned and operated by the private sector. Any efforts 
to better protect critical infrastructure need to be supported and 
implemented by the owners and operators of this infrastructure. It also 
reflects the reality that many in the private sector are already doing 
the right things to protect their systems and should not be diverted 
from those efforts through new requirements.
             current status of the cybersecurity framework
    Underlying all of this work, NIST sees its role in developing the 
Cybersecurity Framework as partnering with industry and other 
stakeholders to help them develop the Framework. NIST's unique 
technical expertise in various aspects of cybersecurity-related 
research and technology development, and our established track record 
of working with a broad cross-section of industry and Government 
agencies in the development of standards and best practices, positions 
us very well to address this significant National challenge in a timely 
and effective manner.
    NIST's initial steps towards implementing the Executive Order 
included issuing a Request for Information (RFI) this past February to 
gather relevant input from industry and other stakeholders, and asking 
stakeholders to participate in the Cybersecurity Framework process. 
Given the diversity of sectors in critical infrastructure, the initial 
efforts are designed help identify existing cross-sector security 
standards and guidelines that are immediately applicable or likely to 
be applicable to critical infrastructure.
    The responses to the RFI--a total of 244--were posted on NIST's 
website. Those responding ranged from individuals to large corporations 
and trade associations and they provided comments as brief as a few 
sentences on specific topics, as well as so comprehensive that they ran 
over a hundred pages. We published an analysis of these comments in 
May.
    NIST is also engaging with stakeholders through a series of 
workshops and events to ensure that we can cover the breadth of 
considerations that will be needed to make this National priority a 
success. Our first such session--held in April--initiated the process 
of identifying existing resources and gaps, and prioritized the issues 
to be addressed as part of the Framework.
    At the end of May, a second workshop at Carnegie Mellon University 
brought together a broad cross-section of participants representing 
critical infrastructure owners and operators, industry associations, 
standards-developing organizations, individual companies, and 
Government agencies. This 3-day working session, using the analysis of 
the RFI comments as input, was designed to identify and achieve 
consensus on the standards, guidelines, and practices that will be used 
in the Framework.
    Based on the responses to the RFI, conclusions from the workshops, 
and NIST analyses, the preliminary Framework is designed and intended:
  <bullet> To be an adaptable, flexible, and scalable tool for 
        voluntary use;
  <bullet> To assist in assessing, measuring, evaluating, and improving 
        an organization's readiness to deal with cybersecurity risks;
  <bullet> To be actionable across an organization;
  <bullet> To be prioritized, flexible, repeatable, performance-based, 
        and cost-effective;
  <bullet> To rely on standards, guidelines, and practices that align 
        with policy, business, and technological approaches to 
        cybersecurity;
  <bullet> To complement rather than to conflict with current 
        regulatory authorities;
  <bullet> To promote, rather than to constrain, technological 
        innovation in this dynamic arena;
  <bullet> To focus on outcomes;
  <bullet> To raise awareness and appreciation for the challenges of 
        cybersecurity but also the means for understanding and managing 
        the related risks;
  <bullet> To be built upon international standards and other 
        standards, best practices and guidelines that are used 
        globally.
    Last week, NIST held its third workshop to present initial 
considerations for the Framework. This workshop had a particular 
emphasis on issues that have been identified from the initial work--
including the specific needs of different sectors. During the workshop, 
NIST gained consensus on the elements of the Framework that include:
  <bullet> A section for senior executives and others on using this 
        Framework to evaluate an organization's preparation for 
        potential cybersecurity-related impacts on their assets and on 
        the organizations ability to deliver products and services. By 
        using this Framework, senior executives can manage 
        cybersecurity risks within their enterprise's broader risks and 
        business plans and operations.
  <bullet> A User's Guide to help organizations understand how to apply 
        the Framework.
  <bullet> Core Sections to address:
    <bullet> Five major cybersecurity functions and their categories, 
            subcategories, and informative references;
    <bullet> Three Framework Implementation Levels associated with an 
            organization's cybersecurity functions and how well that 
            organization implements the Framework.
    <bullet> A compendium of informative references, existing 
            standards, guidelines, and practices to assist with 
            specific implementation.
    At 8 months, we will have a preliminary Framework that builds on 
these elements. In a year's time, once we have developed an initial 
Framework, there will still be much to do. For example, we will work 
with specific sectors to build strong voluntary programs for specific 
critical infrastructure areas. Their work will then inform the needs of 
critical infrastructure and the next versions of the Framework. The 
goal at the end of this process will be for industry itself to take 
``ownership'' and update the Cybersecurity Framework--ensuring that the 
Framework will continue to evolve as needed.
                               conclusion
    The cybersecurity challenge facing critical infrastructure is 
greater than it ever has been. The President's Executive Order reflects 
this reality, and lays out an ambitious agenda founded on active 
collaboration between the public and private sectors. NIST is mindful 
of the weighty responsibilities with which we have been charged by 
President Obama, and we are committed to listening to, and working 
actively with, critical infrastructure owners and operators to develop 
a Cybersecurity Framework.
    The approach to the Cybersecurity Framework set out in the 
Executive Order will allow industry to protect our Nation from the 
growing cybersecurity threat while enhancing America's ability to 
innovate and compete in a global market. It also helps grow the market 
for secure, interoperable, innovative products to be used by consumers 
anywhere.
    Thank you for the opportunity to present NIST's views regarding 
critical infrastructure cybersecurity security challenges. I appreciate 
the committee holding this hearing. We have a lot of work ahead of us, 
and I look forward to working with this committee and others to help us 
address these pressing challenges. I will be pleased to answer any 
questions you may have.

    Mr. Meehan. Thank you, Dr. Romine.
    The Chairman now recognizes Dr. Fischer for 5 minutes of 
testimony.
    Dr. Fischer.

STATEMENT OF ERIC A. FISCHER, PH D, SENIOR SPECIALIST, SCIENCE 
  AND TECHNOLOGY, CONGRESSIONAL RESEARCH SERVICE, LIBRARY OF 
                            CONGRESS

    Mr. Fischer. Good morning, Chairman Meehan, Ranking Member 
Clarke, and distinguished Members of the subcommittee. On 
behalf of the Congressional Research Service, thank you for the 
opportunity to testify today.
    Over the past several years, evidence has grown that U.S. 
critical infrastructure is vulnerable to potentially damaging 
cyber attacks. Calls for action have come from many corridors. 
The 111th and 112th Congresses considered but did not enact 
legislation to address those vulnerabilities.
    Last year, the Obama administration announced that it was 
in developing Executive Order, which as you heard was--as, you 
know, was released in February of this year.
    Five goals in the order have received the most public 
attention. They are No. 1, expanded information sharing 
including Classified information between the Government and the 
private sector.
    No. 2, identification of critical infrastructure for which 
successful cyber attacks could have catastrophic impacts.
    No. 3, a voluntary framework of cybersecurity standards and 
best practices for critical infrastructure developed with the 
private sector.
    No. 4, incentives for voluntary adoption of that framework.
    No. 5, review of regulatory requirements on cybersecurity 
and recommendations on how to improve them.
    The order called for fulfillment of its information-sharing 
requirements and certain others by mid-June of this year and 
for the high-risk critical infrastructure to be designated by 
mid-July.
    The framework is to be finalized by next February along 
with the report addressing privacy and civil liberties 
protections. The review of regulatory requirements is to be 
completed in two stages with gaps to be identified by next 
March and the problematic requirements by February 2016.
    The administration issued Presidential Policy Directive 21 
along with the Executive Order. The Directive makes 
cybersecurity an integral component of critical infrastructure 
security and resilience.
    Generally, reaction to the Executive Order and Directive 
from stakeholders has been positive. Criticisms have tended to 
fall into five categories: Whether the Order does anything new, 
the implementation time table, adoption of the framework, the 
critical infrastructure designation process, and the Order's 
influence on Congressional action. For all five categories, 
arguments have been made on both sides.
    One criticism of the Order was also raised against some of 
the legislative proposals in the 112th Congress that it would 
result in increased industry regulation that would be both 
ineffective and burdensome.
    Such critics say that even a voluntary framework can become 
mandatory in practice. An alternative view is that voluntary 
approaches have not been particularly effective in this area 
and regulation appears to be working in sectors such as 
electric power. Others believe that voluntary approaches can be 
effective without causing undue burdens.
    Some argue that it will be better for this Congress to wait 
until the Order is fully implemented before considering 
legislation. Others believe, however, that the Order merely 
clarifies what changes are needed to current law.
    It may be too early to determine how at least some of those 
concerns above will be addressed, let alone whether the 
responses will satisfy critics. Overall, however, response from 
the private sector appears to be cautiously optimistic.
    With respect to current legislation, the Cybersecurity 
Enhancement Act, H.R. 756, would require a triennial strategic 
plan for cybersecurity R&D. It would be prepared using an 
interagency process similar to that established under the High 
Performance Computing Act of 1991 and related laws.
    PPD 21 also requires a periodic R&D plan, but it would 
focus specifically on critical infrastructure and cover 
physical as well as a cybersecurity.
    It would also be quadrennial rather than triennial, and it 
would be led by the Secretary of Homeland Security rather than 
the Office of Science and Technology Policy.
    CISPA, H.R. 624, would permit sharing of classified 
information with private-sector critical infrastructure 
entities. Under the bill, procedures would be established by 
the Director of National Intelligence. The Executive Order in 
contrast puts the Secretary of Homeland Security in the lead.
    CISPA also requires that the establishment of new 
procedures relating to privacy and civil liberties; whereas the 
Order requires agencies to apply protections consistent with 
established principles.
    Finally, I should mention that CISPA would address one of 
the perceived gaps in current law. It would explicitly permit 
information sharing between private entities and would provide 
liability protections. Significant debate has centered on the 
scope of those changes and the potential impacts on privacy and 
civil liberties.
    That concludes my testimony. Once again, thank you for 
asking me to appear before you today.
    [The prepared statement of Mr. Fischer follows:]
                 Prepared Statement of Eric A. Fischer
                             July 18, 2013
    Chairman Meehan, Ranking Member Clarke, and distinguished Members 
of the subcommittee:
    Thank you for the opportunity to discuss Executive Order 13636, 
Improving Critical Infrastructure Cybersecurity, with you today. In my 
testimony, I will provide some background on the development of the 
Order and describe its major provisions, including the roles it 
proposes for the private sector and reaction to it by those 
stakeholders, as well as its relationship to Congressional legislation 
and the new Obama administration policy directive on critical 
infrastructure.
                   development of the executive order
    Both the George W. Bush administration and the Obama administration 
have made improvements to the cybersecurity of critical infrastructure 
a priority. The Bush administration created the Comprehensive National 
Cybersecurity Initiative (the CNCI) in 2008 via a Classified 
Presidential Directive.\1\ The Obama administration performed an 
interagency review of Federal cybersecurity initiatives in 2009, 
culminating in the release of its Cyberspace Policy Review\2\ and the 
creation of the White House position of Cybersecurity Coordinator.
---------------------------------------------------------------------------
    \1\ National Security Presidential Directive 54/Homeland Security 
Presidential Directive 23 (NSPD-54/HSPD-23).
    \2\ The White House, Cyberspace Policy Review, May 29, 2009, http:/
/www.whitehouse.gov/assets/documents/
Cyberspace_Policy_Review_final.pdf; The White House, ``Cyberspace 
Policy Review [Supporting Documents],'' May 2009, http://
www.whitehouse.gov/cyberreview/documents/.
---------------------------------------------------------------------------
    Both those efforts and a number of reports from agencies, think 
tanks, and other groups identified gaps in Federal efforts. Both the 
111th and 112th Congresses considered legislative proposals to close 
those gaps, but none were enacted. In the absence of enacted 
legislation, the Obama administration began drafting a cybersecurity 
Executive Order in 2012. The development involved a lengthy interagency 
process, with both agencies and stakeholders in the private sector 
providing input.
    The White House released Executive Order 13636 on February 12, 
2013, along with a new policy directive on critical infrastructure. 
Relevant legislation is also being developed by the 113th Congress. 
Four bills with cybersecurity provisions (H.R. 624, H.R. 756, H.R. 967, 
and H.R. 1163) that were introduced in the month after the release of 
the Executive Order passed the House in April, and additional bills in 
the House and the Senate are reportedly being drafted.
                  requirements in the executive order
    The Order uses existing statutory and Constitutional authority to:
  <bullet> Expand information sharing and collaboration between the 
        Government and the private sector, including sharing Classified 
        information by broadening a program developed for the defense 
        industrial base to other critical-infrastructure sectors;
  <bullet> Develop a voluntary framework of cybersecurity standards and 
        best practices for protecting critical infrastructure, through 
        a public/private effort;
  <bullet> Establish a consultative process for improving critical-
        infrastructure cybersecurity;
  <bullet> Identify critical infrastructure with especially high 
        priority for protection, using the consultative process;
  <bullet> Establish a program with incentives for voluntary adoption 
        of the framework by critical-infrastructure owners and 
        operators;
  <bullet> Review cybersecurity regulatory requirements to determine if 
        they are sufficient and appropriate; and
  <bullet> Incorporate privacy and civil liberties protections in 
        activities under the Order.
    The information-sharing and framework provisions in particular have 
received significant public attention.
Information Sharing
    The Order formalizes a previously existing program, now called 
Enhanced Cybersecurity Services, in the Department of Homeland Security 
(DHS), for providing classified threat information to eligible critical 
infrastructure companies and to their eligible internet, network, 
communications, and cybersecurity service providers (known jointly as 
commercial service providers or CSPs). The program developed out of a 
pilot involving the Department of Defense and companies in the defense 
industrial base, which is one of the 16 recognized critical-
infrastructure sectors.
    The Order also requires the Secretary of Homeland Security, the 
Attorney General, and the Director of National Intelligence to expedite 
dissemination to targeted entities of unclassified and, where 
authorized, classified threat indicators. Additionally, the Secretary 
of Homeland Security is to expedite processing of security clearances 
to appropriate critical-infrastructure personnel and expand programs to 
place relevant private-sector experts in Federal agencies on a 
temporary basis.
Cybersecurity Framework
    Executive Order 13636 requires the National Institute of Standards 
and Technology (NIST) to lead the development of a Cybersecurity 
Framework that uses an open, consultative process to identify cross-
sector, voluntary consensus standards and business best practices that 
can reduce cybersecurity risks to critical infrastructure. The 
framework is to be technology-neutral. It must identify areas for 
improvement and be reviewed and updated as necessary.
    The Secretary of Homeland Security is required to set performance 
goals for the framework, establish a voluntary program to support its 
adoption, and coordinate establishment of incentives for adoption. The 
sector-specific agencies must coordinate review of the framework and 
development of sector-specific guidance, and report annually to the 
President on participation by critical-infrastructure sectors. Agencies 
with regulatory responsibilities for critical infrastructure are 
required to engage in consultative review of the framework, determine 
whether existing cybersecurity requirements are adequate, report to the 
President whether the agencies have authority to establish requirements 
that sufficiently address the risks, propose additional authority where 
required, and identify and recommend remedies for ineffective, 
conflicting, or excessively burdensome cybersecurity requirements.
    The development of the framework is arguably the most innovative 
and labor-intensive requirement in the Executive Order. It builds on 
the involvement of NIST in the development of cybersecurity technical 
standards \3\ and its statutory responsibilities to work with both 
Government and private entities on various aspects of standards and 
technology.\4\
---------------------------------------------------------------------------
    \3\ See, e.g., National Institute of Standards and Technology, 
``Computer Security Resource Center,'' February 20, 2013, http://
csrc.nist.gov/.
    \4\ 15 U.S.C. 272.
---------------------------------------------------------------------------
    None of the major legislative proposals in the 111th and 112th 
Congresses had proposed using NIST to coordinate an effort led by the 
private sector to develop a framework for cybersecurity, such as is 
envisioned by the Executive Order. Hundreds of entities have been 
involved in NIST's efforts to date, beginning with a Request for 
Information in February and including public workshops in April, May, 
and July of 2013.\5\ An additional workshop is planned for September.
---------------------------------------------------------------------------
    \5\ National Institute of Standards and Technology, ``Cybersecurity 
Framework,'' July 2, 2013, http://www.nist.gov/itl/cyberframework.cfm.
---------------------------------------------------------------------------
Other Requirements
    Acquisition and Contracting. The Secretary of Defense and the 
Administrator of General Services must make recommendations to the 
President on incorporating security standards in acquisition and 
contracting processes, including harmonization of cybersecurity 
requirements.
    Consultative Process. The Secretary of Homeland Security is 
required to establish a broad consultative process to coordinate 
improvements in the cybersecurity of critical infrastructure.
    Cybersecurity Workforce. The Secretary of Homeland Security is 
required to coordinate technical assistance to critical-infrastructure 
regulatory agencies on development of their cybersecurity workforce and 
programs.
    High-Risk Critical Infrastructure. The Order requires the Secretary 
of Homeland Security to use consistent and objective criteria, the 
consultative process established under the Order, and information from 
relevant stakeholders to identify and update annually a list of 
critical infrastructure for which a cyber attack could have 
catastrophic regional or National impact, but not including commercial 
information technology products or consumer information technology 
services. The Secretary must confidentially notify owners and operators 
of critical infrastructure that is so identified of its designation and 
provide a process to request reconsideration.
    Privacy and Civil Liberties. The Order requires agencies to ensure 
incorporation of privacy and civil liberties protections in agency 
activities under the Order, including protection from disclosure of 
information submitted by private entities, as permitted by law. The DHS 
Chief Privacy Officer and Officer for Civil Rights and Civil Liberties 
must assess risks to privacy and civil liberties of DHS activities 
under the Order and recommend methods of mitigation to the Secretary in 
a public report. Agency privacy and civil liberties officials must 
provide assessments of agency activities to DHS.
Implementation Deliverables and Deadlines
    The Order contains several requirements with deadlines, and other 
requirements with no associated dates. In March 2013, DHS announced 
that it had formed a task force with eight working groups focused on 
the various deliverables for which it is responsible.\6\ There are 12 
deliverables with specific associated dates:
---------------------------------------------------------------------------
    \6\ Department of Homeland Security, ``Integrated Task Force,'' 
March 18, 2013, http://www.dhs.gov/sites/default/files/publications/EO-
PPD%20Fact%20Sheet%2018March13.pdf.
---------------------------------------------------------------------------
            June 12, 2013
  <bullet> Instructions for producing unclassified threat reports 
        (Secretary of Homeland Security, Attorney General, Director of 
        National Intelligence) (Sec. 4(a)).
  <bullet> Procedures for expansion of the Enhanced Cybersecurity 
        Services Program (Secretary of Homeland Security) (Sec. 4(c)).
  <bullet> Recommendations to the President on incentives to 
        participate in the framework (Secretaries of Homeland Security, 
        Commerce, and the Treasury) (Sec. 8(d)).
  <bullet> Recommendations to the President on acquisitions and 
        contracts (Secretary of Defense, Administrator of General 
        Services) (Sec 8(e)).
            July 12, 2013
  <bullet> Designation of critical infrastructure at greatest risk 
        (Secretary of Homeland Security) (Sec. 9(a)).
            October 10, 2013
  <bullet> Publication of preliminary Cybersecurity Framework (Director 
        of the National Institute of Standards and Technology) (Sec. 
        7(e)).
            February 12, 2014
  <bullet> Report on privacy and civil liberties, preceded by 
        consultations (Chief Privacy Officer and Officer for Civil 
        Rights and Civil Liberties of DHS) (Sec. 5(b)).
  <bullet> Publication of final Cybersecurity Framework (Director of 
        the National Institute of Standards and Technology) (Sec. 
        7(e)).
            May 13, 2014
  <bullet> Reports to the President on review of regulatory 
        requirements (agencies with regulatory responsibilities for 
        critical infrastructure) (Sec. 10(a)).
  <bullet> Proposed additional risk mitigation actions (agencies with 
        regulatory responsibilities for critical infrastructure) (Sec. 
        10(b)).
            February 12, 2016
  <bullet> Reports to the Office of Management and Budget on 
        ineffective, conflicting, or burdensome requirements (agencies 
        with regulatory responsibilities for critical infrastructure) 
        (Sec. 10(c)).

    The Order also includes more than 20 actions for which no specific 
date is provided. While many of the activities under the Order are in 
the process of development, some provisions may already have had some 
effect. For example, the provision on expedited security clearances was 
apparently used in responses to a cyber attack this past spring on 
several banks, to facilitate communication by the FBI with the 
banks.\7\
---------------------------------------------------------------------------
    \7\ Joseph Menn, ``FBI Says More Cooperation with Banks Key to 
Probe of Cyber Attacks,'' Reuters, May 13, 2013, http://
www.reuters.com/article/2013/05/13/us-cyber-summit-fbi-banks-
idUSBRE94C0XH20130513.
---------------------------------------------------------------------------
    relationship of the executive order to the presidential policy 
                               directive
    Presidential Policy Directive 21 (PPD 21),\8\ Critical 
Infrastructure Security and Resilience, on protection of critical 
infrastructure, was released in tandem with Executive Order 13636. PPD 
21 supersedes Homeland Security Presidential Directive 7 (HSPD 7), 
Critical Infrastructure Identification, Prioritization, and Protection, 
released December 17, 2003. PPD 21 includes cybersecurity broadly as a 
need to be addressed along with physical security. It seeks to 
strengthen both the cyber- and physical security and resilience of 
critical infrastructure by:
---------------------------------------------------------------------------
    \8\ The White House, ``Critical Infrastructure Security and 
Resilience,'' Presidential Policy Directive 21, February 12, 2013, 
http://www.whitehouse.gov/the-press-office/2013/02/12/presidential-
policy-directive-critical-infrastructure-security-and-resil.
---------------------------------------------------------------------------
  <bullet> clarifying functional relationships among Federal agencies, 
        including the establishment of separate DHS operational centers 
        for physical and cyber-infrastructure;
  <bullet> identifying baseline requirements for information sharing, 
        to facilitate timely and efficient information exchange between 
        Government and critical-infrastructure entities while 
        respecting privacy and civil liberties;
  <bullet> applying integration and analysis capabilities in DHS to 
        prioritize and manage risks and impacts, recommend preventive 
        and responsive actions, and support incident management and 
        restoration efforts for critical infrastructure; and
  <bullet> organizing research and development (R&D) to enable secure 
        and resilient critical infrastructure, enhance impact-modeling 
        capabilities, and support strategic DHS guidance.
Implementation Deliverables and Deadlines
            June 12, 2013
  <bullet> Description of functional relationships within DHS and 
        across other Federal agencies relating to critical 
        infrastructure security and resilience (Secretary of Homeland 
        Security).
            July 12, 2013
  <bullet> Analysis of public-private partnership models with 
        recommended improvements (Secretary of Homeland Security).
            August 11, 2013
  <bullet> Convening of experts to identify baseline information and 
        intelligence exchange requirements (Secretary of Homeland 
        Security).
            October 10, 2013
  <bullet> Demonstration of ``near-real-time'' situational-awareness 
        capability for critical infrastructure (Secretary of Homeland 
        Security).
  <bullet> Updated National Infrastructure Protection Plan that 
        addresses implementation of the directive (Secretary of 
        Homeland Security).
            February 12, 2015
  <bullet> First quadrennial National Critical Infrastructure Security 
        and Resilience R&D Plan (Secretary of Homeland Security).\9\
---------------------------------------------------------------------------
    \9\ PPD 7 gave primary responsibility for coordinating R&D to the 
Office of Science and Technology Policy.

    In addition to DHS, the Directive describes specific 
responsibilities for the Departments of Commerce, Interior, Justice, 
and State, the intelligence community, the General Services 
Administration, the Federal Communications Commission, the sector-
specific agencies, and all Federal departments and agencies.\10\
---------------------------------------------------------------------------
    \10\ PPD 7 did not describe specific responsibilities of the 
intelligence community, the General Services Administration, or the 
Federal Communications Commission.
---------------------------------------------------------------------------
 relationship of the executive order to the cyber intelligence sharing 
       and protection act (cispa, h.r. 624) and other legislation
    A number of observers, both in the Federal Government and the 
private sector, have stated that Executive Order 13636 is not 
sufficient to protect U.S. critical infrastructure from cyber threats, 
and that legislation is needed. In 2011, the White House proposed 
legislation with provisions on personnel authorities, criminal 
penalties, data breach notification, authorities of the Department of 
Homeland Security (DHS), a regulatory framework for cybersecurity of 
critical infrastructure, and reform of the Federal Information Security 
Management Act (FISMA). Related provisions also appeared in bills 
introduced in recent Congresses. Both the White House proposal and 
several bills have contained incentives for information sharing by the 
private sector with the Federal Government and other private entities, 
including protection from legal liability and exemption from provisions 
in the Freedom of Information Act.
    At a hearing before the Senate Committee on Homeland Security and 
Governmental Affairs in September 2012, Secretary of Homeland Security 
Janet Napolitano stated that in addition to the Executive Order, there 
were at least three things for which legislation would be necessary: 
Personnel authorities, liability protections, and criminal penalties 
(S. Hrg. 112-639, p. 23). A number of private-sector entities have also 
stated that liability and disclosure protections are needed to 
encourage private-sector information sharing.
    Among the cybersecurity bills that have been introduced in the 
113th Congress, H.R. 624, the Cyber Intelligence Sharing and Protection 
Act (CISPA), which passed the House in April, addresses information 
sharing. Some provisions in CISPA, as in the Executive Order, would 
provide for expedited security clearances and sharing of classified 
information by the Federal Government with the private sector. The bill 
would additionally permit entities providing cybersecurity services to 
themselves or others (which the bill calls cybersecurity providers) to 
obtain and share threat information for purposes of protection, 
notwithstanding any other provision of law.
    CISPA would also make such entities and those they protect exempt 
from liability for good-faith use of cybersecurity systems to obtain or 
share threat information and decisions based on such information.
    In the Senate, the Committee on Commerce, Science, and 
Transportation is reportedly drafting a bill that would provide a 
legislative basis for NIST's role in developing and updating the 
framework in the Executive Order.\11\ The draft bill would also 
reportedly require a Federal cybersecurity research and development 
plan, as would H.R. 756, the Cybersecurity Enhancement Act of 2013, 
which passed the House in April. PPD-21 requires an R&D plan that 
addresses security and resiliency for critical infrastructure, 
including cybersecurity.
---------------------------------------------------------------------------
    \11\ John Eggerton, ``Rockefeller, Thune Circulate Cybersecurity 
Draft,'' Broadcasting & Cable, July 12, 2013, http://
www.broadcastingcable.com/article/494447-Rockefeller_Thune_- 
Circulate_Cybersecurity_Draft.php.
---------------------------------------------------------------------------
            private-sector reactions to the executive order
    Given the absence of enacted comprehensive cybersecurity 
legislation, some security observers contend that the Executive Order 
is a necessary step in securing vital assets against cyber threats. 
Some observers, however, have raised concerns.\12\ Common themes by 
such critics include the following claims:
---------------------------------------------------------------------------
    \12\ See, for example, Paul Rosenzweig and David Inserra, Obama's 
Cybersecurity Executive Order Falls Short, Issue Brief No. 3852, 
February 14, 2013, http://www.heritage.org/research/reports/2013/02/
obama-s-cybersecurity-executive-order-falls-short; Dave Frymier, ``The 
Cyber Security Executive Order Is Not Enough,'' Innovation Insights: 
Wired.com, March 1, 2013, http://www.wired.com/insights/2013/03/the-
cyber-security-executive-order-is-not-enough/.

  <bullet> The Order offers little more than do existing processes. 
        Such critics point out that, for example, the Enhanced 
        Cybersecurity Services program was in place before the release 
        of the Order, and that a variety of efforts have been underway 
        to develop and adopt voluntary standards and best practices in 
        cybersecurity for many years. Proponents of the Order argue 
        that it lays out and clarifies Obama administration goals, 
        requires specific deliverables and time lines, and that the 
        framework and other provisions are in fact new with the 
        Executive Order.
  <bullet> The Order could make enactment of legislation less likely. 
        These critics express concern that Congress might decide to 
        wait until the major provisions of the Order have been fully 
        implemented before considering legislation. Proponents state 
        that immediate action was necessary in the absence of 
        legislation, and that changes in current law are necessary no 
        matter how successful the Executive Order might be, to provide 
        liability protections for information sharing and to meet other 
        needs.
  <bullet> The process for developing the framework is either too slow 
        or too rushed. Some observers believe that some actions to 
        protect critical infrastructure are well-established and should 
        be taken immediately, given the nature and extent of the 
        current threat. They state that the year-long process to 
        develop the framework may delay implementation of needed 
        security measures\13\ and creates unnecessary and unacceptable 
        risks. Others counter that widespread adoption of the framework 
        requires consensus, which takes time to achieve, and that the 
        1-year time frame may be insufficient, given that the process 
        for developing and updating consensus standards often takes 
        several years. Some also state that the framework process does 
        not preclude entities from adopting established security 
        measures immediately.
---------------------------------------------------------------------------
    \13\ For example, some suppliers to the Federal Government have 
reportedly called for suspension of procurement rulemaking relating to 
cybersecurity until the framework has been published (Aliya Sternstein, 
``Contractors Ask GSA to Freeze Cyber-Related Regulations,'' Nextgov, 
May 17, 2013, http://www.nextgov.com/cybersecurity/2013/05/contractors-
ask-gsa-freeze-cyber-related-regulations/63244/
?oref=nextgov_cybersecurity).
---------------------------------------------------------------------------
  <bullet> The framework risks becoming a form of de facto regulation, 
        or alternatively, its voluntary nature makes it insufficiently 
        enforceable. Another concern of some is that it could lead to 
        Government intrusiveness into private-sector activities, for 
        example through increased regulation under existing statutory 
        authority,\14\ while others contend that voluntary measures 
        have a poor history of success. Some others, however, have 
        argued that changes in the business environment--such as the 
        advent of continuous monitoring, more powerful analytical 
        tools, and a better prepared workforce--improve the likelihood 
        that a voluntary approach can be successful.\15\
---------------------------------------------------------------------------
    \14\ For example, some believe that the framework, while voluntary, 
``could develop in such a way that companies will be forced to adopt 
prescriptive standards due to the fact that information on program 
adoption for `high-risk' industries may be made public. More 
concerning, this could be done without a review process and could be 
used to leverage [sic] in ways that may not be beneficial to lowering 
overall risk'' (Testimony of David E. Kepler, Senate Committee on 
Homeland Security and Governmental Affairs and Senate Committee on 
Commerce, Science, and Transportation, ``The Cybersecurity Partnership 
Between the Private Sector and Our Government: Protecting Our National 
and Economic Security,'' hearing, March 7, 2013, http://
www.hsgac.senate.gov/hearings/the-cybersecurity-partnership-between-
the-private-sector-and-our-government-protecting-our-national-and-
economic-security).
    \15\ CRS Report R42984, The 2013 Cybersecurity Executive Order: 
Overview and Considerations for Congress, by Eric A. Fischer et al.; 
Mike McConnell et al., The Cybersecurity Executive Order (Booz Allen 
Hamilton, April 26, 2013), http://www.boozallen.com/media/file/BA13-
051CybersecurityEOVP.pdf.
---------------------------------------------------------------------------
  <bullet> The Order could lead to overclassification or 
        underclassification of high-risk critical infrastructure by 
        DHS. Some observers have expressed concern that the requirement 
        in the Order for DHS to designate high-risk critical 
        infrastructure may be insufficiently clear and could lead to 
        either harmfully expansive designations or inappropriate 
        exclusions of entities.\16\ This might be particularly a 
        problem if the criteria are not sufficiently validated.\17\
---------------------------------------------------------------------------
    \16\ Testimony of Roger Mayer, House Committee on Energy and 
Commerce, ``Cyber Threats and Security Solutions,'' hearing, May 21, 
2013, http://energycommerce.house.gov/hearing/cyber-threats-and-
security-solutions.
    \17\ The Government Accountability Office (GAO) expressed similar 
concerns about DHS's National Critical Infrastructure Prioritization 
Program (NCIPP) list of highest-priority U.S. infrastructure 
(Government Accountability Office, Critical Infrastructure Protection: 
DHS List of Priority Assets Needs to Be Validated and Reported to 
Congress, GAO-13-296, March 2013, http://www.gao.gov/assets/660/
653300.pdf). The relationship between the NCIPP list and that under the 
Executive Order has raised some concerns. There appear to be some 
differences between the lists that have resulted in some disagreements 
with the private sector (see, for example, Testimony of Dave McCurdy, 
House Committee on Energy and Commerce, Cyber Threats and Security 
Solutions, hearing, May 21, 2013, http://energycommerce.house.gov/
hearing/cyber-threats-and-security-solutions).

    It appears to be too early in the development of the components of 
the Executive Order to determine how the concerns described above will 
be addressed and whether the responses will satisfy critics and 
skeptics. Overall, however, response to the Order from the private 
sector--including critical-infrastructure entities, trade associations, 
---------------------------------------------------------------------------
and cybersecurity practitioners--appears to be cautiously optimistic.

    Mr. Meehan. Well, thank you Dr. Fischer.
    I thank each of the panelists for your opening statements.
    Now I recognize myself for 5 minutes of questions.
    Dr. Romine, let me just start with you because the focus of 
our hearing today is NIST and the work that has been done, and 
I know you gave a little bit of an opening with regard to some 
of the progress, but give me a sense as to where you are by 
virtue of the three separate meetings that have been done and 
what you expect will be the next most critical steps moving 
into the meetings in Dallas next month.
    Mr. Romine. Thank you for the question. I am actually quite 
excited by the progress that we have made and the response that 
we have gotten from the private sector.
    One of the concerns that you always have when you begin an 
issue like this is ensuring that you get a good participation 
and a vigorous discussion with the private sector if you are 
going to establish a voluntary program with the framework as 
the backbone.
    I am really gratified in two ways. We have gotten vigorous 
discussions and vigorous debate and we have achieved over the 
course of a relatively short time a lot of consensus on the 
overall structure of the framework. We are going to take that, 
the consensus that we have received in San Diego just last week 
on elements of it and establish a pretty solid draft framework 
in preparation for the meeting in Dallas.
    As you know, the deliverable will be immediately after or 
just a short time after the Dallas----
    Mr. Meehan. What do you think the essence of that 
deliverable is going to be? What was going to come out at the 
conclusion of this process?
    Mr. Romine. So I think there are a few key elements to the 
framework that have to be there. One is an executive summary 
that is digestible by the very senior leadership of 
corporations, companies, the owners and operators of the 
critical infrastructure.
    This is something that they are going to have to integrate 
into their business decision process, and so we have to convey 
enough information in a way that is digestible to them so that 
they----
    Mr. Meehan. I guess--who and how? That is part of what a 
lot of this is--you know, the questions become--we often talk 
about the weakest link, but there is also the--when you talk 
about business and other kinds of, you know, public and 
private-sector entities that it is an endless process of who 
may or may not be included.
    Who do we think this is targeted to, you know, to be 
received by, and what kind of activity are we expecting them to 
undertake as a result of the creation of the standards?
    Mr. Romine. Well, I think the goal is for all of the 
critical infrastructure sectors that have been identified 
through the DHS process and are going to be responsive to the 
adoption of this voluntary framework and that includes 
companies at various levels of both sophistication and various 
levels of import in terms of the critical infrastructure.
    So there are going to be some very major corporations who 
already have a lot of mature business processes in place and 
cybersecurity risk assessment in place to adopt the framework 
because they may be the most critical of the critical 
infrastructures and I am sure Mr. Kolasky----
    Mr. Meehan. Mr. Kolasky, let me jump onto that with you in 
terms of the identification of this most critical 
infrastructure because this is one of the pieces as well, and 
while I know you can't talk with specificity about that at this 
point in time because my understanding is that it will be 
something that will be more or less protected information, but 
where do you come off of the work that is being done in here 
and how will the identification of specific sectors uniquely 
vulnerable relate to what is being done and how about those 
that are not identified as the most vulnerable but will still 
be out there in commerce?
    Mr. Kolasky. Sure. Thank you, Chairman Meehan.
    First and foremost, to do the work to identify the critical 
infrastructure where cybersecurity incident could cause 
catastrophe, we had to work with all of the 16 critical 
infrastructure sectors and we set up a process to do so.
    In doing so, we identified the critical functions that each 
of those infrastructure produce. That and analytic work done in 
collaboration with industry is very helpful for understanding 
the overall scope of critical infrastructure in a relationship 
with cybersecurity which will help the framework adoption.
    In terms of the actual critical infrastructure that we have 
identified or are in the process of identifying, it is a 
relatively small list. It is a list where we think a 
cybersecurity incident can cause public safety or significant 
economic damage or National security implications, we plan to 
work with those industries, those entities, those businesses--
--
    Mr. Meehan. Are many or most of those industries already 
pretty far along in terms of their commitment to cybersecurity 
or are you concerned about some real outliers?
    Mr. Kolasky. I think it is fair to say that we are 
confident that they are very well along with cybersecurity. 
Most of those entities we have on-going relationships with and 
we plan to continue those on-going relationships. We will work 
with them to identify risk management approaches and provide 
Federal resources to support them, but we are confident that 
they have taken a cybersecurity problem very seriously and that 
they have gone a long way in mitigating their vulnerabilities.
    Mr. Meehan. Okay.
    Well, thank you.
    My time is expired, but I know we are going to have an 
opportunity to ask a series of questions, so I look forward to 
exploring it further.
    The Chairman now recognizes the gentlelady from New York, 
Ms. Clarke.
    Ms. Clarke. Thank you--thank you very much, Mr. Chairman.
    The privacy and the civil liberties protections established 
in the Executive Order process are to be consistent with the 
fair information practice principles including the principle of 
data minimization.
    What steps are being taken to ensure that once a final 
framework is in place personally identifiable information that 
is irrelevant and unnecessary to accomplish a specified 
cybersecurity purpose will not be collected?
    I want to extend that question to all of the panelists.
    Mr. Romine. Well, I can certainly start on the development 
on the framework through the workshops. I will give a specific 
example in San Diego. We had a separate breakout section 
specifically devoted to privacy and civil liberties issues 
where we got the chance to engage with a broad cross-section of 
stakeholders and received their input on the importance and 
some of the techniques that are already being used by these 
industries to ensure protection of privacy and civil liberties.
    That was led by my laboratory's senior advisor for privacy, 
a position that I am committed to. I think that is an important 
position for an information technology laboratory to have. So I 
am very proud of that.
    We also at NIST have the information security and privacy 
advisory board or ISPAB, a Federal advisory committee that we 
keep apprised of our activities that are relevant in that space 
and so we engage with them and we are hoping to engage with the 
privacy and civil liberties board that has been recently 
reconstituted as well. It is baked into many of the discussions 
that we have during the framework development.
    Ms. Clarke. Do either of you have----
    Mr. Kolasky. Sure. I would just add that across the EO, the 
PPD as part of the integrated task force, we have stood up an 
assessments working group particularly thinking of privacy and 
civil liberties assessments for all of the work that is going 
on with the EO PPD.
    We did this at the front end of the work and these members 
have been sitting on our working groups and working in 
collaboration across the interagency because we very much want 
to bake privacy and civil liberties into all the work we are 
doing rather than review and assess at the end of it.
    Ms. Clarke. Very well. Let me move on to my second question 
then.
    Section 5(a) of the Executive Order requires agencies to 
coordinate their activities with their senior privacy and civil 
liberties officials. Are senior privacy and civil liberties 
officials at each agency, being NIST and DHS--excuse me--are 
these civil liberty officials at each agency given the 
opportunity to provide substantive policy recommendations 
during the development of the phase of the framework? Can you 
expand on their role in the process?
    Mr. Kolasky. As I was just talking about with the 
assessments working group, very much so. This is a 
collaboration across the senior civil liberties and privacy 
officials.
    It has been a great opportunity in some of the departments 
and agencies. Traditionally these folks haven't worked on 
critical infrastructure issues.
    It has created a community practice and they been given an 
opportunity in addition, you know, with all our work we are 
briefing the advocacy community and other interested parties 
regularly on what is going on.
    Ms. Clarke. Very well.
    Mr. Romine. I would say within the Department of Commerce, 
the privacy and civil liberties officer at NIST is our chief 
information officer. He is down the hall from me. I get the 
opportunity to talk with him on a regular basis about 
everything that our laboratory is doing including this effort.
    At the Department of Commerce, as you know, it is the 
Secretary of Commerce who was directed by the President to 
direct the director of NIST under the Executive Order to 
undertake this framework development and they are certainly 
aware of all of the actions that we are taking.
    They are at the Secretary's level--they have the Privacy 
and Civil Liberties Office and they are certainly aware as 
well.
    Ms. Clarke. Very well.
    Let me ask Mr. Kolasky, Presidential Policy Directive 21 
which accompanied the Executive Order requires an evaluation of 
existing public-private partnership model and recommendations 
for improving public/private collaboration.
    Can you characterize for the committee the current status 
of the public/private partnership model and what steps are 
being considered to improve the model?
    Mr. Kolasky. Sure, yes, ma'am. First of all, we delivered 
this report last week and I think the good news is we really do 
believe that the model has been established over the last 15 
years to work on critical infrastructure security and 
resilience is working and has the potential to work to solve 
tough critical infrastructure security and resilience issues.
    I think the process that we have been undergoing over the 
last 6 months is a great demonstration of that. There were 
improvements that can be made but the key is to understand that 
we have been able to collaborate with the private sector 
through these processes and work with State and local and 
Tribal territorial governments.
    The reason I think we can do that is there is a shared 
sense of purpose. We have improved communications. We are 
working toward joint priorities and things like that. That all 
leads to trust. Nothing is more important to trust that 
industry and Government and at different levels of government 
can come together to work on these issues.
    In terms of recommendations going forward, we--as I said, 
although it is working we think there are some enhancements 
that can be made. We would like to move from more of a process-
focused and outcome-focused partnership.
    We would like to use the partnership to set joint National 
priorities, and I think that is an important step. We would 
like to explore how to promote regional networks and bring some 
of the good work down to the regional level, and finally we 
would like to look at new methods to unleash innovation through 
public and private programs.
    Ms. Clarke. Thank you all very much. I yield back, Mr. 
Chairman.
    Mr. Meehan. I thank the gentlelady.
    The Chairman now recognizes the distinguished gentleman 
from Pennsylvania, the former United States attorney, from the 
middle District of Pennsylvania, Congressman Marino.
    Mr. Marino.
    Mr. Marino. Thank you, Chairman.
    Good morning, gentlemen, and I apologize for being late and 
not hearing all of the opening statements. I am trying to 
juggle three and four things as my colleagues know that we do.
    I have a concern following up on my colleague across the 
aisle as far as security but from a different perspective. We 
have certainly seen where this administration has a series of 
bungles concerning IRS, Benghazi, Fast and Furious, but the 
President happens to come up with, ``I didn't know about it,'' 
``I don't know anything about it,'' and usually there is a low-
level person that gets blamed for it--who is still on the 
payroll as a matter of fact.
    So what can you do, what can be done if the President is 
going to take the responsibility for this to make sure that we 
don't have Snowdens running around gathering critical 
information about what we are doing and those involved and then 
sharing it with our enemies?
    Mr. Kolasky, perhaps you could start with this.
    Mr. Kolasky. Sure. Thank you, Congressman, and thank you 
for the question.
    As you know, this is an important issue that whatever we do 
we need to protect the security of the information that we are 
providing and that we are collecting.
    The security approaches within the Executive Order relate 
to information sharing and we are thinking of it in two 
different ways; one of which is we are working to separate 
Classified information from Unclassified information and focus 
on getting Unclassified information on how to mitigate cyber 
vulnerabilities based on cyber threats out as efficiently and 
quickly as possible in an actual manner to help industry take 
action to mitigate those threats.
    That is a very important step. This doesn't have to be done 
at a Classified level in a lot of places and if we can improve 
those processes, that will help very much.
    The second side to promote the protection of Classified 
information, we have made improvements in our enhanced 
cybersecurity service program and made that available to a 
limited number of commercial service providers to promote the 
airing of information we have about cyber threat indicators and 
these are particular cyber threat indicators.
    They are things like malware and email language and we want 
to make sure that is available but we want to make sure that 
security is protected in doing so and finally we want to make 
sure that anyone that gets a security clearance in Government 
has undergone proper vetting.
    Mr. Marino. Thank you.
    Doctor, please.
    Mr. Romine. Congressman, from the standpoint of the 
framework, I think your question really relates principally to 
the idea of risk mitigation strategies for the insider threat.
    So that has been a source of on-going discussion, but as a 
part of a more general discussion among owners and operators of 
critical infrastructure to ensure the, sort of, full risk 
management approach for cybersecurity and that includes both 
the insider threat as well as Congresswoman Clarke's concerns 
about protection of privacy and civil liberties.
    Mr. Marino. Doctor.
    Mr. Fischer. Thank you, Mr. Marino. I would just like to 
add that I would say that a lot of experts believe that it 
would--it is basically impossible to prevent any, you know, 
insider threat from being successful----
    Mr. Marino. As a prosecutor, I am aware it is basically--it 
is impossible to prevent anything, but it does happen, but it 
just seems that it is happening ad nauseam with this 
administration.
    Mr. Fischer. Right. So the question then becomes, what are 
the levels at which that kind of problem can be tolerated, and 
how does it relate to the potential benefits of what is being 
done.
    So for example, with respect to the information sharing, 
you know, one of the things that DHS has been doing with the 
enhanced cybersecurity services program is to focus--if I 
understand correctly--on what they call cybersecurity service 
or commercial service providers which have to do with the 
internet service providers and that sort of thing rather than 
opening up the dissemination of this threat information to all 
sorts of critical infrastructure entities, and so the critical 
infrastructure entities work through these CSPs.
    So to the extent that that sort of thing is successful, the 
idea of narrowing the vulnerabilities to specific areas may be 
useful.
    Mr. Marino. Thank you.
    I have another question, but perhaps we will have another 
round, and so I yield back.
    Mr. Meehan. I thank the gentleman.
    The Chairman now recognizes the distinguished gentleman 
from Texas, Mr. Vela.
    Mr. Vela. Thank you for your testimony today.
    Dr. Romine, Executive Order 13636 specifically provides 
that the cybersecurity framework and protection against cyber 
threats should include physical threats; not just computer 
viruses and hacking.
    The White House Strategic National Risk Assessment includes 
natural electromagnetic pulse from a geomagnetic super-storm as 
an example of a physical threats to critical infrastructures.
    Does the cybersecurity framework as you envision it include 
threats not only from computer viruses and hacking but physical 
threats especially from EMP?
    Mr. Romine. I would say yes in general although EMP is not 
spotlighted as much as just the overall risk assessment that 
each of these owners and operators is going to be involved in.
    When we talk about a cybersecurity and protection of 
critical infrastructure, we are keenly aware of the cyber 
physical systems nature of many of these infrastructures that 
the information systems are not in fact independent but rather 
often interact with physical or other kinds of systems.
    So the risk assessment approach that we are taking or the 
risk management approach that we are taking in the framework is 
intended to encompass the impact or the risks holistically 
rather than just with regard to viruses and other kinds of 
cyber threats, traditional cyber threats.
    Mr. Vela. Dr. Fischer, what additional challenges are 
imposed globally in terms of privacy protection and the sharing 
of personally identifiable information across borders?
    Mr. Fischer. Sir, Mr. Vela, could I clarify? You say what 
challenges to with respect to the Executive Order and----
    Mr. Vela. Yes, no it is: What additional challenges are 
imposed globally in terms of privacy protection and the sharing 
of personal identifiable information across borders?
    Mr. Fischer. I see, okay.
    Yes, well, two quick things I can say to that. First of 
all, there obviously--the work is being done within the United 
States is done in the context, international context and there 
is quite a network of international agreements.
    There is no, currently, no global cybersecurity treaty. 
Some people have tried to--tried to draft such a thing, but it 
hasn't been adopted, and there are a lot of bilateral 
agreements which often would be the vehicles in which these 
sorts of concerns would, I think, be addressed.
    With respect to specific--or specific questions or with 
respect to privacy and civil liberties, I would say that is 
outside of my expertise, but we do have experts on our 
cybersecurity team within CRS who deal specifically with those 
issues and we would be happy to talk with you about that or 
answer questions for the record.
    Mr. Vela. Okay. I guess we will wait for another day on 
those.
    For the whole panel, what are examples of effective risk-
based approach in the framework?
    Mr. Romine. So one of the exciting things that we have had 
in the workshops is seeing the representatives of various 
industries talking with each other about the approaches that 
they take and the effectiveness of those approaches.
    One of those approaches involves something that in the 
energy sector is called the C2M2 which essentially regardless 
of that, the expansion of that, the idea is to have a, sort of, 
set of maturity levels associated with specific functions.
    If you take a look at the framework outline that we 
provided in San Diego and some of the consensus that we 
received, that model seems to be very attractive to the vast 
majority of the participants and the critical infrastructures.
    So that kind of risk assessment--NIST has a very strong 
history in risk-based management of cybersecurity through the 
Federal Information Security Management Act or FISMA, 
activities.
    We have had special publications that are quite influential 
in this space with regard to the private sector and have been 
adopted widely by the public sector and have been adopted 
widely by the private sector as well because of their 
effectiveness.
    Mr. Kolasky. I would just add one of the things I have 
observed through the process is an example of what works is if 
corporate leadership gets involved in the process and we have 
heard that repeatedly that you have to produce a framework that 
resonates at the board level and resonates as the CEO level and 
in doing so, that will help organizations make risk management 
decisions.
    Mr. Fischer. I don't believe I would have anything to add 
it to those comments at this point. Thank you, sir.
    Mr. Vela. I yield back.
    Mr. Meehan. I thank the gentleman from Texas.
    I recognize myself now for 5 minutes of follow-up 
questions.
    One of the issues that we have been dealing with throughout 
the concept of not only the creation of the NIST standards but 
as the underlying concept of voluntary adoption of those 
standards and it permeates the language in the report, I mean 
in the Executive Order that these are voluntary.
    But at the same time we are creating a framework, and I 
would like to explore the extent to which people begin to see 
this framework as a basis for further activity, not the least 
of which could become further activity in which that framework 
is used as the basis for other regulatory agencies to say that 
they are now authorized to begin to create required adherence 
to certain of these standards.
    I would like the panel to individually address your 
perception of what voluntariness means and where you believe 
and to the extent certainly, Mr. Kolasky and Dr. Romine, to the 
extent that you are dealing with NIST, where you believe this 
goes to and what you believe the intention is with regard to 
whether these will ultimately be utilized in some way to become 
requirements.
    Because I am aware of a number of shalls in the Executive 
Order and, you know, the shall-proposed, prioritized, risk-
based, coordinated actions, you know, if the current regulatory 
requirements are deemed to be insufficient.
    So please, Dr. Romine, first.
    Mr. Romine. I can start with that. NIST has a long history 
of developing in coordination with industry guidelines and best 
practices and ultimately industry-led standards that do govern 
the industry in a purely voluntary way, and that has been very 
effective in the past, and we expect it to be effective in the 
future with the Executive Order and the framework.
    The only way that works is vigorous participation on the 
part of the private sector so that they have buy-in and a stake 
in the outcome of the framework itself.
    So I think with that understanding and the fact that we 
believe that we have that vigorous participation, I am not as 
concerned about this being a, sort of, a hidden way of getting 
regulatory authority. I really think the voluntary nature of it 
is quite explicit and quite transparent and we expect it to 
continue to be that way.
    Mr. Meehan. Mr. Kolasky, what is your impression of this 
from DHS?
    Mr. Kolasky. Sure. First principle of ours as we 
participated in this is for the framework to be successful and 
in the attached assessments--incentives it has to make sense 
for businesses to make business decisions.
    Businesses make rational decisions and they have to see 
that this is in their business interest and because of that, as 
Dr. Romine just referred to, it is very important to listen to 
businesses and we have taken that obligation----
    Mr. Meehan. I mean, you don't question--and I often talk to 
businesses. Businesses will say we are way ahead of the 
Government in many ways because we appreciate that the exposure 
that we have to our business--so we are asking you, what are 
you doing to help us, and then I get that part. What I am 
concerned about is when we begin to get to a point where some 
businesses say hey, we think we are doing something and we 
start to get Washington coming in and creating a requirement.
    Mr. Kolasky. Right. That is why the voluntary nature of 
this is so important. If we can create confidence in the 
marketplace that businesses are doing something, if we can 
offer information to continue to incentivize them to do 
something, then I don't think Government needs to get involved 
in that kind of manner that you are talking about.
    So it is really important for us to set up a framework that 
gives the market confidence so businesses can do business with 
each other and with the Government is that they are taking----
    Mr. Meehan. So to the extent said that you speak for 
Department of Homeland Security and you are allowed to discuss 
it as a matter of policies, it is your perception that the 
Department is looking at this as a voluntary program?
    Mr. Kolasky. I can speak with certainty that the Department 
is looking at this----
    Mr. Meehan. Dr. Fischer, you have had the ability to see 
these kinds of things not just in this particular area with 
cyber, but in the broader spectrum with other agencies in which 
there have been standards that have been utilized, Department 
of Defense, EPA, other kinds of things and in your own 
testimony you discussed the different pieces of this issue. 
Would you articulate more fully your sense as to whether or not 
these kinds of the voluntary standards may or have been 
utilized in other situations to become regulations and 
requirements?
    Mr. Fischer. So there are a few points I think might be 
useful to make here.
    No. 1 is that we have been asked particularly in the last 
Congress by a number of Congressional offices about the 
question of what the current regulatory capabilities or powers 
are of the Federal Government with respect to cybersecurity.
    Our answer had to be that there--except for cases in which 
they are explicitly laid out and clear--where there are such 
regulations such as a width of the electric power sector--it is 
difficult to say because until the agency actually tries to 
create a regulations, one doesn't know what is really going to 
happen because the regulatory process is a separate process. It 
involves industry and other stakeholders in----
    Mr. Meehan. But do you believe as it stands right now and I 
am sorry to cut you off and please go forward if you can, but I 
do want to ask this question. Do you believe that the way the 
Executive Order is written right now as it moves in it opens 
the door to the ability of agencies to say, in our 
interpretation and it may be a particular agency that may look 
in just say, in our interpretation, there is an opportunity 
here for us to use this as a basis to ask for, you know, more 
cyber protection in a particular area?
    Mr. Fischer. Certainly the Executive Order explicitly 
requires that agencies make recommendations with respect to 
where the gaps are. So to the extent that those gaps would be I 
guess fillable under current law, then it is clear that 
agencies could in fact attempt to create regulations in those 
areas.
    To the extent that they are not as capable under current 
law, then that is the interpretation, then they would have to 
come to Congress for additional authority.
    Mr. Meehan. Well, this is where they have to come to 
Congress for additional authority to do what? To do rulemaking 
of regulations because as I see this they are talking about----
    Mr. Fischer. Well, to be able to--right--so if for example 
the current--if the current regulation--if the current 
authority of an agency to create regulations is limited or the 
agency determines that it doesn't have the authority 
currently----
    Mr. Meehan. Well, I have never--we don't have a problem 
here in Washington with agencies who believe that they have 
limited authority to enter into issues and that is why I am 
trying to explore this provision in the Order which says, you 
know, if the current regulatory requirements are deemed to be 
insufficient--now I don't know who deems them to be 
insufficient but it may be the agency itself that says hey, we 
believe that this is, you know, the current regulatory 
requirements are insufficient, you know, within 90 days we will 
publish a final of the--published final framework, we are going 
to propose, you know, further coordinated actions and that 
appears to me to be regulation or rulemaking.
    Mr. Fischer. Right. So to me, the question becomes whether 
or not the agency currently has the authority to make those 
rules and regulations. If they do have that authority, then 
they may do it anyways.
    So for example, with respect to the pipeline sector and 
certainly we have people who can talk to very specifically 
about that, but with respect to pipelines, the TSA has the 
capability of or says that it has the capability of creating 
cybersecurity regulations, but they have decided that those 
regulations are not needed and might in fact be 
counterproductive to date. That is my understanding of what 
they have said.
    So, you know, so there are examples in which they clearly--
agencies apparently have not----
    Mr. Meehan. That is left to the discretion of the agency or 
are they constrained by law?
    Mr. Fischer. Well, TSA appears to have that authority under 
current law. Now whether that is true for others is hard to 
say.
    So for example, I would say that, generally speaking, you 
know, we certainly haven't found anything with respect to the 
IT sector that would permit such things, which isn't to say 
that some agency might not claim that they have it, that 
authority, though.
    Mr. Meehan. All right.
    Well, thank you Dr. Fischer.
    I now turn it to the distinguished lady from New York.
    Ms. Clarke. Thank you, Mr. Chairman.
    Just following up on the line of inquiry that our Chairman 
posed to you.
    Mr. Romine, what does flexibility mean in the context of 
the framework?
    Mr. Romine. I would say the primary reason for the need for 
flexibility is the different sectors have very different 
characteristics in the way that they operate and you have to 
have a framework that is capable of recognizing that.
    In addition, the owner-operators might range from 
multibillion-dollar international corporations to relatively 
small regional concerns who still own and operate some portion 
of what is deemed to be critical infrastructure. The 
capabilities represented by those two things also mandates that 
we have a flexible approach.
    Ms. Clarke. So in effect, it is addressing the nuances of 
the specificity of industry and company size, what have you?
    Mr. Romine. That is right, and I think an additional point 
I would make is that many of these critical infrastructures 
have in place a series of protections that they have invested 
in and believe are quite effective.
    We want to be sure that the framework is flexible enough to 
recognize that those measures that are already being taken if 
they are effective should not be replaced by something else as 
a result of the framework. So we are trying to be mindful of 
that as well.
    One final point I would make is that in many cases, these 
particular critical infrastructures are regulated already to 
one degree or another and in some cases, very heavily 
regulated, and I think the intent of this notion of regulation 
review is to ensure that we harmonize the framework in a way 
that recognizes the regulations that are already in place so 
that we are not committing sectors to an onerous change in the 
way that they do their business.
    Ms. Clarke. Very well.
    Mr. Kolasky, Dr. Fischer, how can implementation of the 
framework be used to demonstrate compliance with existing 
regulatory requirements? That is, sort of, I think, where Dr. 
Romine was going. Is that something that you have also 
recognized?
    Mr. Kolasky. Yes, it is. Let me talk about it in a couple 
of terms. One of which you mentioned earlier, the incentives 
work that we have done in analysis and over and over again we 
heard from our private-sector partners as well as some of our 
advisory councils that one potential incentive would be to 
allow the cybersecurity framework to meet the information 
security requirements for already-regulated industry ergo 
reducing compliance costs and we think that that is something 
that needs to be pursued and thought about because if you can 
demonstrate you have got good cybersecurity in place you 
shouldn't have to demonstrate it twice to the Government.
    Second, just to echo Dr. Romine, I think it is really 
important to think about the idea of regulatory relief and are 
there regulations in place that are going to impede the 
adoption of the cybersecurity framework and the Executive Order 
asks the regulatory agencies to think about that because we 
don't want regulations that are in place that will cause people 
from not adopting good positive flexible cybersecurity 
solutions.
    Mr. Fischer. I guess the only question I might have about 
that would be--obviously--if to the extent you have let's say 
many private-sector entities are--feel more comfortable with--
those that are regulated--feel have developed good relations 
within their current regulatory environment and feel 
comfortable with the like, for example the electric sector, but 
others as well.
    So they are somewhat concerned if in fact they feel that 
that environment will be changed to the extent that other 
agencies would end up being involved say in the regulation.
    So to the extent that the current environment could be kept 
stable for them, I think they would be more receptive to the 
possibility of--to compliance.
    I think I will stop there.
    Ms. Clarke. Dr. Fischer, that is a very intriguing 
statement you have made for me because I understand how 
industry could want to remain in a stable environment but the 
environment around them is changing and so to the extent, I 
guess it is an evolutionary process in terms of adaptation, but 
the status quo wouldn't necessarily work.
    Mr. Fischer. Well, we are--yes. So with respect to 
cyberspace, the situation is somewhat different than it may be 
with--in other areas. So, you know, I often say cyberspace is 
the most rapidly evolving technology space in human history, 
and the technology is evolving, the threat environment is 
evolving, things are changing constantly.
    I think it is widely recognized within experts in this 
area, and the private-sector people have paid attention to 
this, that in fact that kind of rapid evolution means that 
static, particularly design-based standards, for example, have 
a very limited usefulness.
    Now performance standards are usually considered to be 
better but the problem with performance standards is of course 
that you have to come up with what the performance criteria are 
and that can be sometimes more difficult and they can sometimes 
be more difficult to enforce.
    But I think that most people who have looked at this 
question seriously have in fact said that well, there is 
basically kind of a baseline of standards that are going to be 
true no matter what, performance standards, but there has to be 
the flexibility to be able to change things on a much more 
rapid basis in reaction to what happens with respect to, you 
know, with respect to the environment.
    Now I just want to say one more thing about that. There is 
this--it has been some time ago that, right, there is this 
design problem in cybersecurity that is that the cyberspace was 
not designed with security in mind is often said.
    One of the reactions to that is well, what you have to do 
is build security in. Now right now, I mean, everybody kind of 
seems I think to agree with that, but there are two things.
    No. 1 is there is always going to be a need to add things 
on because there is always going to be problems that you 
couldn't possibly anticipate when you design something.
    The second point I think is that there are always or there 
appear to be in the current--with the current incentive 
structure with respect to cybersecurity--there appear to be, 
sort of, counter incentives to building security in from the 
get-go.
    Now whether those are essentially fundamental or not is 
something that I don't think anybody really understands, but 
that is always, you know, an issue. So to the extent that you 
are going to have to add this stuff on later is a question.
    Ms. Clarke. I yield back, Mr. Chairman.
    Thank you, gentlemen.
    Mr. Meehan. I thank the gentlelady.
    Just using the prerogative of the Chairman for one second, 
Dr. Fischer, you are articulating something which is at the 
heart of where we, I think, appreciate and need to be sensitive 
to, which is the dynamic nature of the cyber threat.
    Such that what you build today as a defense will not only 
be analyzed but it will be--there are those who will spend 
their time purposely trying to get around it; therefore we have 
got--it is a constant state of cat and mouse, so to speak, for 
lack of a better word.
    The framework itself that we are talking about is very 
admirable in the sense that it creates a place for people to 
begin to have a sense about what they can and should be doing, 
but do we create a problem if they see the framework as a 
check-the-box kind of thing that says, okay, now I am cyber 
safe.
    Mr. Fischer. Right. I appreciate the question, Mr. 
Chairman. One of the criticisms that has been leveled by some 
people, and I can't say to the degree to which they are 
accurate about this, but one of the things that has been 
leveled is that for example, by analogy with FISMA, one of the 
criticisms of the Federal Information Security Management Act 
has been that it has become something of a check-box exercise 
where, you know, it is very process-oriented and it doesn't 
really focus on the question of how you keep systems actually 
safe and secure.
    Now there are obviously attempts to revise FISMA, to amend 
FISMA, and also I would say the administration has been doing--
the current administration and the Bush administration as 
well--have been doing things to try to actually make systems 
secure and focus more on that aspect of what the law intends, 
the goals of the law.
    But to the extent that the framework of, would it become a 
kind of bureaucratic, you know, check list, that would be a 
problem. I certainly wouldn't want to speak to how NIST and DHS 
are trying to avoid having that happen, but I am sure that they 
are aware of that problem as well.
    Mr. Meehan. Thank you.
    Thank you for the indulgence.
    The Chairman now recognizes the gentleman from 
Pennsylvania.
    Mr. Marino. Thank you, Chairman.
    My colleague, the Chairman and of course my colleague is a 
former U.S. attorney as well-spawned a thought based on his 
questioning and the question I am asking and that I am going to 
follow up with a little statement is who or whom, what person 
as far as general, what people, or what entities are we 
focusing on because several weeks ago, Mayor Giuliani came in 
and testified before the full committee, and I agreed with him 
100 percent on his observations.
    He said we cannot take our eye off of the ball but we have 
several balls in the air that we must be watching 
simultaneously.
    We cannot take our eye off of al-Qaeda and there are those 
that think that al-Qaeda is defeated and we really don't have 
to worry about them anymore. I think that couldn't be any more 
from the truth than anything at all.
    But then there are individuals that think we need to focus 
on individual terrorists, who the leaders of the terrorist 
organizations persuade some fanatic, young terrorist to do 
something whether that is through propaganda or initial 
contact--and by the way, you never see the terrorists who are 
running the organizations strap bombs to themselves or their 
families, it is always that they convince somebody else to do 
it.
    But Giuliani was very specific saying we have to keep our 
eye on the rogue such as the Boston terrorists and 
organizations such as al-Qaeda and without tipping the cards, 
what say each of you about where we are as far as watching the 
whole scheme? Do you understand my question?
    Mr. Kolasky.
    Mr. Kolasky. Sure. Thank you, Congressman Marino.
    It is a hard challenge, and that is what is so important 
about the intelligence component of this and we have made a lot 
of investments in trying to understand both the adversaries' 
tactics and the nature of the adversary and, you know, their 
incentives and what they are trying to do and we will continue 
to make those investments and as we learn from that, as I 
talked about earlier, one of our jobs is to get the information 
out to those who are protecting the networks so they know what 
to be looking for.
    This threat, unfortunately, is coming from a lot of 
different places. It is coming from international, it is coming 
from domestically, it is coming from the mid-level hackers in 
the organized coalitions, and in criminals.
    And so because of that, we have to learn and we had to get 
that information out to folks at an Unclassified level so that 
they can protect their networks.
    Mr. Marino. Sure, and as you mentioned, we do have the 
individual hackers, we do have the genius kid and we have, I 
think, still al-Qaeda and other organizations, and we have the 
Chinese. So I am just hoping that we are keeping--I am pretty 
sure we are keeping our eye on each one of these entities.
    Doctor, would you please respond?
    Mr. Romine. I would say from the framework's standpoint and 
though work that NIST is doing, the threat space is very broad 
and evolving as you have correctly noted and part of 
Congresswoman Clarke's question, if I could amend my answer, I 
would also include the evolution of the threat space as an 
important component of being flexible in our response.
    I think the goal of the framework is to assist the private-
sector owners and operators to raise the bar as much as we can 
in the cybersecurity space so that all of these threat vectors 
are--it is much, much more difficult to cause harm to the 
United States regardless of whether you are in a basement or in 
a foreign country.
    Mr. Marino. Thank you, Doctor.
    Mr. Fischer. Yes. Well, I tend to--we tend to think about 
different classes of potential actors with respect to threats. 
So clearly as you mentioned, I mean, you have on the one hand 
there is the criminal element and often they are interested in, 
you know, financial gain through illegal means; basically 
ordinary crime through cyber means is what it amounts to. But 
increasingly, there appears to be an organized crime element 
of--with respect to cyber attacks as well.
    Then there is what you might call the cyber hacktivists--
the--or--you know, sometimes there is just, sort of, you know, 
the script kiddie types, you know, people who are trying to 
just, you know, created an exploit of some sort. But also, 
those are making some political statement.
    Then the third is would be the terrorists, the al-Qaeda 
types, and the like that are more organized and have a specific 
political goal and then finally the, kind of, state actors, you 
know, which sometimes called the advanced, persistent threats 
if you don't want to give a name to a particular country.
    But all those are going to have--those actors are going to 
have different goals. They are going to have different levels 
of sophistication. I think that to the extent that the--you 
know, that the framework and the other aspects of the EO and 
PPD can in fact take those into account, obviously they will be 
more effective.
    Mr. Marino. Gentlemen, your task is monumental and I 
appreciate what you are doing for this country.
    I yield back.
    Mr. Meehan. Thank the gentleman from Pennsylvania.
    The Chairman now recognizes the distinguished former 
prosecutor from Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman.
    Thank you, Ranking Member Clarke, for having this important 
meeting.
    Just quickly, I just want to hone in on one thing is that 
as you go about the task, both with, you know, establishing the 
framework around the Executive Order of the President and as 
you are dealing with the National Institute responsibility of 
developing a framework to secure the information, in this whole 
process, is it going to be role carved out more specifically, 
or at least the flexibility for universities to get more 
involved and other involved Northeastern, in my own home State, 
has worked very closely with some of you folks.
    But I want to just see what your view is and is there 
because I think it is critically important. I think it is an 
area where you have maybe information gathering and research 
done that may not be biased by existing economic impacts to an 
individual business although there are some.
    Also it is another important area for us not just with 
Homeland Security but in terms of other Government agencies and 
private agencies as well to really develop trained people which 
I see as one of the major problems that we will continue to 
have as people move in and out of the private-sector jobs.
    That we really need the intellectual and educational 
brainpower to keep up as well. So I see the benefits of 
universities being great. Could you just comment on what you 
are going to do; how they have a place in this?
    Mr. Romine. Certainly, and thank you very much for the 
question.
    You are absolutely right. It is no accident that the three 
working sessions or workshops that we--two that we have already 
held and one that we are going to be holding are at university 
venues--we had our second overall workshop was at Carnegie 
Mellon University. The third one which we had last week was at 
the University of California at San Diego and the next is going 
to be at the University of Texas, Dallas.
    That is an attempt, an explicit attempt on our part to 
engage a cross-section of the academic community as well. We 
have strong relationships with many academic institutions and I 
couldn't agree more.
    One of the risks that has been identified consistently in 
many of our cybersecurity efforts but certainly during the 
framework development with industry is industry telling us as 
well that workforce--a cyber-educated workforce is a key risk 
that they see--the lack of the ability to attract cybersecurity 
talent.
    So, I agree with you. I think the other thing, the other 
role that the universities can play is at the point where we 
have identified a substantial gap whether it is in the 
standards space or whether it is in the technology space, 
universities are well-poised to help us in that area as well.
    Mr. Keating. Great. Well, thank you, and I would 
particularly appreciate anything that you might offer to me and 
the committee as a whole to tell us what we can do to try and 
encourage that because I see those gaps and I see them as 
becoming more and more of a problem going forward.
    So with that, I will yield back my time and I think my 
colleague also for letting me go. Thank you.
    Mr. Meehan. The Chairman now recognizes the gentleman from 
Texas, Mr. Vela.
    Mr. Vela. Yes, I have a couple more questions for the 
panel.
    Section 9(b) of the Executive Order allows other Federal 
agencies to share information with the Department of Homeland 
Security to identify at-risk infrastructure.
    Since the Executive Order was issued in February, what has 
been the nature of this inter-agency information sharing?
    Mr. Kolasky. Sure, thank you, Congressman.
    So that specific task has been met by us working with the 
sectors of the critical infrastructure sectors to identify 
critical infrastructure. So this has necessitated close 
collaboration with the sector-specific agencies particularly 
agencies like the Department of Energy, the EPA, the Department 
of Transportation, and others, Health and Human Services and 
others.
    So the nature of that engagement is really to understand 
how these sectors come to work and to bring in private-sector 
partners to have a conversation. We have focused largely in 
doing that work in understanding the most critical 
infrastructure in the infrastructure that can cause high 
consequences so it is critical that we have the folks who 
understand how those industries work, bringing them to the 
table, and then we work with our industry partners to 
understand if there is any nexus to cyber technologies.
    Mr. Vela. Have the Department of Defense, law enforcement, 
or intelligence communities shared information with DHS under 
this provision?
    Mr. Kolasky. Sure. The Department of Defense is also a 
sector-specific agency. It is the sector-specific agency for 
the defense industrial base and so we work closely with them in 
that regard.
    The law enforcement community and intelligence community 
were involved in the discussions on the methodology and the 
approach we took, but given that the approach largely focused 
on understanding how systems work and consequences related to 
systems failing, those are questions that are largely outside 
of the sphere of the intelligence community and the law 
enforcement community.
    So although they participated in the discussions, they have 
not really been the focus of the information sharing.
    Mr. Vela. Mr. Kolasky, Section 9(a) requires that the 
Secretary of Homeland Security in consultation with private-
sector partners and other relevant agencies identify critical 
infrastructure at the greatest risk. What criteria is being 
used for this purpose?
    Mr. Kolasky. Sure, sure. The Executive Order talks about 
the criteria in terms of public safety and health consequences, 
economic consequences, and the impact to National security.
    So as we defined that, when we are talking--and it uses the 
phrase catastrophic--and we take that phrase to be a fairly 
high threshold--so catastrophe is something that is very 
significant to this country either at a National or regional 
level.
    So as we have developed a criteria, we have looked to pass 
critical infrastructure efforts and we thought about economic 
security and economic loss in terms of tens of billions of 
dollars, significant loss of life, and negative ability for us 
to project power, our military to protect power through 
National security needs.
    Mr. Vela. Last week, the administration held its first 
strategic economic dialogue with Chinese officials. 
Administration officials cited progress in the talks while 
stating that continued intellectual property theft originating 
from China was unacceptable. How does the Executive Order help 
stem the loss of intellectual property? I don't know who is 
best to answer that question.
    Mr. Kolasky. I think very much intellectual property theft 
is one of the cybersecurity incidents that we are very 
cognizant of, so our information-sharing efforts certainly take 
that into account; so do our protective efforts in the work 
that is being done via the framework.
    Mr. Romine. I would just add that intellectual property 
loss is one of the risks that the owners and operators do face 
in the critical infrastructure domain and so to that extent, it 
fits into the overall risk management and risk mitigation 
strategy that the framework promotes.
    Mr. Fischer. You know, I would just like to add that the 
economics of cybersecurity both even with respect to the 
question of what real losses are and what it means is an area 
that is currently undergoing a lot of examination. A lot of 
things about it aren't clear.
    It depends on the scale at which one is looking at it, 
whether you are looking at it on the scale of an individual 
company or the scale of a country or global scale, and from 
some of the efforts I have seen, I think there is a pretty good 
chance that there will be a lot of clear understanding of that 
over the next year or so.
    Mr. Vela. Thank you. I yield back my time.
    Mr. Meehan. I thank the gentleman.
    I just have some closing questions. If I may, and they 
really go into two areas. Let me start with one. You know, we 
have mentioned the issue of liability a number of times as we 
move into this and it is sort of the back-end of incentives in 
some ways because we are trying to incent our partners to step 
up to the plate.
    But I also, in my experience, and of course we have work to 
jointly here on this committee with ourselves and with staff 
from both sides of the aisle reaching out to a cross-section of 
participants in the various sectors, and the input has been 
good because it really gives you a sense as to the way they see 
the world why they are trying to evaluate the threat.
    But one of the concerns is a lot of folks are already 
struggling with where they make commitments of resources when 
it is hard to define what the impact of, you know, protective 
stances is so that you could do an endless amount of investment 
and not be certain how much you are increasing your security.
    Therefore, there is a concern about, you know, steps that 
are being taken. What happens if we create this framework that 
then is utilized as a basis for somebody to say rightly or 
wrongly in litigation you should have taken some steps? Where 
does it start to become a standard that becomes something that 
is used?
    Dr. Fischer, do you have a thought on that?
    Mr. Fischer. Well, I just--sort of following up on a 
previous question with respect to this--one of the things that 
can happen with voluntary standards is that if they become a 
business norm, then of course businesses that don't follow 
those standards can be subject to certainly criticism and 
potentially lawsuits.
    So that would certainly be something that would have to be 
paid attention to. I think that is what you are referring to 
and what some critics of the framework have said with respect 
to a voluntary framework becoming effectively de facto 
mandatory.
    Now I should mention that, you know, with respect to the 
particular legal issues, that is outside of my area of 
expertise, but we do have experts on our team who can talk with 
you about it.
    Mr. Meehan. All right. Thank you.
    Let me just step into one last thing so long as we are 
here. The gentlelady from New York in her opening statement 
identified a document that I am also in possession of and it is 
called as the ``DHS Incentive Study Preliminary Analysis and 
Findings'', Mr. Kolasky, and of course it is as I am sure with 
anything, when it is called preliminary, this represents some 
of the current thinking.
    But I would like to explore if I can some of this which is 
before us because it looks at the very concept of incentives 
and maybe you can explain to me what the document is first and 
then there are a few specific questions----
    Mr. Kolasky. That is a work product that we shared on May 
21 in advance of us delivering a document to the White House on 
June 12. That work product was shared broadly with our working 
group in the integrated task force, which includes 
representatives from industry.
    What we were trying to do there is present a look at the 
research that is out there and get feedback from the owner-
operator community to help us shape our final recommendations. 
So I think it is fine that you have the document because we 
made it regularly--we made it widely available so we could 
collect feedback so we could hone in on our recommendations and 
then I am happy to talk about----
    Mr. Meehan. Well, if you can, can we walk down a couple of 
things here because I know that you know, we are discussing 
first the idea of a legislative proposal. Can you indicate to 
me what is meant by a legislative proposal and what is the 
intention of DHS or the administration or others to introduce 
new or additional legislation in the area of cybersecurity?
    Mr. Kolasky. Sure. Again, we are still, at the 
administration level, we are still having conversations. DHS 
issued a report. So did the Department of Treasury. So did to 
the Department of Commerce as well as GSA and DOD on Federal 
procurement incentives and so my understanding and in talking 
with administration, is those four reports that are up there 
and we are now talking at the administration level, the policy 
process and steps forward as you refer to in the document.
    Some of the incentives that have been recommended by 
various folks along the way and incentives reports would take 
legislative action and so there is a possibility that the 
administration would come and talk to you all about 
particularly----
    Mr. Meehan. So as you are looking into the future, but, you 
know, we have been working on a bipartisan basis to try to 
consider whether there are legislative steps that ought to be 
taken in addition to and some argue that legislation is 
necessary--legislation, we believe necessary to help you in 
your job in terms of codifying the ability of DHS and then 
further to give DHS the ability to be a point of importance as 
we move forward.
    So in light of the fact that legislation generally begins 
in the Congress, it would be very good if conversations about 
legislation include us.
    Mr. Kolasky. I think we are happy to do that and happy to 
have conversations particularly on the incentives and I will 
echo my opening statements that as we pointed out, we 
appreciate the fact that one of the things that we hope is in 
the new legislation is to codify some of DHS's roles in general 
and cybersecurity and also that some of these incentives if we 
think they make sense, we have to work together to put them in 
place because they are outside of the authority of the 
Executive branch.
    Mr. Meehan. Okay. Can I ask, there is a couple of things in 
here--you talk about insurance, removed as an independent 
category of incentives and we are going to put it into the 
cybersecurity act. What steps are being considered with 
respected to insurance?
    Mr. Kolasky. So what we said in our incentives report is we 
are very much in favor of the evolution of the cyber insurance 
market. We think that a lot of progress has been made 
independent of Government action to create a cyber insurance 
market and we hope that that will continue. The best incentives 
are market-based incentives.
    In terms of if you are thinking about--and what that refers 
to--if you are thinking about any liability protections of that 
need to be put in place, we have to think carefully as you have 
talked about, Congressman Meehan, we have to think carefully 
about not creating liability protections that incent bad 
behavior and that any liability protections may have to be tied 
with insurance requirements.
    Mr. Meehan. Well, since insurance is generally a market-
based thing, what is the legislative aspect that relates to 
insurance?
    Mr. Kolasky. We do not recommend any legislative aspects 
related to insurance. We think that the Government has 
convenient power to promote the insurance market, but----
    Mr. Meehan. I am only saying final incentive category--I am 
reading the document--remove as independent category, include 
in cybersecurity act, which I am presuming is the legislation.
    Mr. Kolasky. That was an acronym that was created. We do 
not recommend that specifically in our----
    Mr. Meehan. Would that be the same thing for liability 
considerations and legal benefits? I mean, those are two and so 
is there I guess I would ask liability considerations--is there 
some discussion of legislation that would deal with liability?
    Mr. Kolasky. Not that I am aware of at DHS.
    Mr. Meehan. And legal benefits. I am just, again, coming 
from the document. Do you understand what that might refer to 
in any specific sense?
    Mr. Kolasky. Sure. Other legal benefits could be things 
like antitrust protections, which obviously is something that--
--
    Mr. Meehan. Right. FOIA?
    Mr. Kolasky. It could be another legal benefit, and again, 
the document that you are looking at is a review of incentives 
that are available, not a review of our recommended incentives.
    Mr. Meehan. Well, do you have recommended incentives? Are 
you going to make recommendations in these particular areas?
    Mr. Kolasky. We have made general recommendation pending 
the creation of the cybersecurity framework. As I said, our 
recommendations were done in coordination with Treasury and 
Commerce but are independent of each other and the 
administration is considering all of those and all of us will 
work together to chart a path forward.
    Mr. Meehan. Okay. Let me just ask one then. I am sorry for 
overrunning my time, but I want to work with this document. If 
I could ask just one last question. Just the--tell me where you 
are on the expedited security clearance process because this 
seems to suggest that you are going to remove that incentive, 
that there is a sense that this is moving along at an 
appropriate enough pace.
    Mr. Kolasky. Yes. We do not believe that that is an 
incentive. We believe that should be done on a need-to-know 
basis and that we should work with owners and operators.
    We should not attach that to the cybersecurity framework 
but instead, work with owners and operators to identify 
critical infrastructure and individuals within critical 
infrastructure owner and operators companies who have the need 
to get Classified cyber threat information; at the 150-day mark 
we deliver to the administration, update on DHS's program to 
get private-sector individuals clearances, and improvements and 
enhancements----
    Mr. Meehan. You know, because that is the thing that I hear 
again and again and again and you are a little bit better than 
another agency we hear frequently about but it--you know, we 
get asked for all kinds of information to be dumped into the 
Government and then we never hear anything again.
    Mr. Kolasky. We have made a lot of progress since February, 
but in doing so, we wanted it to be measured progress related 
to Congressman Marino's question to make sure we aren't giving 
clearances to people who don't need clearances.
    Mr. Meehan. Okay. I thank you for your testimony.
    Does the gentlelady have any follow-up questions?
    Ms. Clarke. No, I am fine.
    Mr. Meehan. Okay.
    Well, I want to express my deep appreciation for your 
testimony today. The witnesses' testimony has been very 
valuable to us. There may be possible questions from some of 
the other Members of the committee and if in fact there are and 
they are forwarded to you, I ask that you would do your best to 
respond in writing.
    So without objection, the subcommittee stands adjourned.
    [Whereupon, at 11:41 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
